<html>
<title> - LEADING BY EXAMPLE: THE NEED FOR COMPREHENSIVE PAID LEAVE FOR THE FEDERAL WORKFORCE AND BEYOND</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                      LEADING BY EXAMPLE: THE NEED
                    FOR COMPREHENSIVE PAID LEAVE FOR
                    THE FEDERAL WORKFORCE AND BEYOND

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 24, 2021

                               __________

                           Serial No. 117-32

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available at: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov

                               __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-985 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------                                
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Mike Quigley, Illinois

                      Russ Anello, Staff Director
                Christina Parisi, Senior Policy Advisor
                       Elisa LaNier, Chief Clerk
                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                  
                                 ------                                
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on June 24, 2021....................................     1

                               Witnesses

Everett Kelley, National President, American Federation of 
  Government Employees
    Oral Statement...............................................    10

Vicki Shabo, Senior Fellow, Paid Leave Policy and Strategy, 
  Better Life Lab, New America
    Oral Statement...............................................    12

Eric Sorkin, Co-Owner and Chief Executive Officer, Runamok Maple
    Oral Statement...............................................    14

Hadley Heath Manning, Director of Policy, Independent Women's 
  Forum
    Oral Statement...............................................    16

Lelaine Bigelow, Interim Vice President for Economic Justice and 
  Congressional Relations, National Partnership for Women & 
  Families
    Oral Statement...............................................    18

 Opening statements and the prepared statements for the witnesses 
  are available in the U.S. House of Representatives Repository 
  at: docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

  * Article, ``Paid Leave is Essential for Healthy Moms and 
  Babies,'' National Birth Equity Collaborative; submitted by 
  Rep. Pressley.

  * Statement in Support of H.R. 564 from Tony Reardon, President 
  of the National Treasury Workers Union; submitted by Rep. 
  Maloney.

  * Statement in Support of H.R. 564 from Karen Rainey, President 
  of Federally Employed Women; submitted by Rep. Maloney.

  * Statement in Support of H.R. 564 from Jenna Johnson, Head of 
  Patagonia, Inc.; submitted by Rep. Maloney.

  * Statement in Support of H.R. 564 from the National Air 
  Traffic Controllers Association; submitted by Rep. Maloney.

  * Statement in Support of H.R. 564 from the Government Managers 
  Association; submitted by Rep. Maloney.

The documents are available at: docs.house.gov.

 
                      LEADING BY EXAMPLE: THE NEED
                    FOR COMPREHENSIVE PAID LEAVE FOR
                    THE FEDERAL WORKFORCE AND BEYOND

                              ----------                              


                        Thursday, June 24, 2021

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:13 a.m., via 
Zoom, Hon. Carolyn Maloney [chairwoman of the committee] 
presiding.
    Present: Representatives Maloney, Norton, Lynch, Connolly, 
Raskin, Mfume, Ocasio-Cortez, Tlaib, Porter, Bush, Davis, 
Welch, Johnson, Sarbanes, Speier, Kelly, Lawrence, DeSaulnier, 
Gomez, Pressley, Comer, Foxx, Hice, Grothman, Cloud, Higgins, 
Norman, Sessions, Keller, Biggs, Clyde, Franklin, Fallon, 
Herrell, and Donalds.
    Chairwoman Maloney. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time. I now recognize myself for 
an opening statement.
    Today, we will discuss the dire need for comprehensive paid 
leave in the United States, and the steps Congress can take to 
meet that need.
    In 2019, Congress passed my landmark legislation 
guaranteeing paid parental leave for the birth, adoption, or 
fostering of a child for more than 2 million Federal employees.
    This was a huge step forward. There were only two countries 
in the world, the United States and Papua New Guinea, that did 
not provide at that time paid leave for the birth of a child.
    With the passage of this bill, it put the government in a 
strong position to recruit and retain a talented, diverse work 
force. But we cannot rest now because there is much more work 
to be done.
    We need to build on this historic achievement by bringing 
the Federal Government's employment policies in line with 
leading companies in the private sector and, indeed, the rest 
of the world.
    That is why in January, I introduced H.R. 564, the 
Comprehensive Paid Leave for Federal Employees Act. This bill 
would finally provide Federal employees with comprehensive paid 
family and medical leave. That means employees would have 
access to paid leave if they get sick, need to care for an ill 
family member, or need to miss work due to family members' 
military deployment.
    The Family and Medical Leave Act guarantees unpaid leave 
for these reasons, but unpaid leave is untenable for too many 
Federal workers. This is a policy that is long overdue for the 
Federal work force and for our Nation.
    The Federal Government has the opportunity to lead the way 
on paid leave and fostering a family friendly workplace. While 
providing access to paid parental leave was critically 
important and long overdue, it is just as important to provide 
access to paid family and medical leave, too.
    Illnesses and military deployments are not events that can 
be planned for. As we have all learned in the past year, 
illness can strike any of us at any time. It is fair--is it 
fair? Let me ask you, is it fair to ask workers to make an 
agonizing choice between caring for a family member or 
continuing to receive a paycheck?
    The answer, clearly and unequivocally, is no. These are 
choices that no one should have to make. The coronavirus 
pandemic has demonstrated dramatically and undeniably the need 
for paid family leave. Too many Americans lacked access to paid 
family leave during the pandemic with devastating consequences. 
Expanding access to paid leave is a large part of a strong and 
equitable recovery.
    Just as importantly, after a year of global pandemic that 
has killed 600,000 Americans, why do we tolerate policies that 
actually create an incentive for workers to come to work sick 
because they cannot afford to take unpaid time off?
    Does anyone seriously believe that this is good public 
policy? Our committee has been working hard to fix these 
problems.
    We championed a provision of the American Rescue Plan that 
established a $570 million fund in the U.S. Treasury to provide 
up to 15 weeks of paid coronavirus-related leave for all 
Federal employees, including postal workers and others that are 
on the front line of providing services to Americans.
    This was an essential component of our Nation's response to 
the pandemic. But paid leave is just as important for workers 
facing any kind of family health crisis.
    That is why we are proposing to take the necessary next 
steps by providing paid family and medical leave for all 
Federal employees.
    Let us be clear, paid leave would benefit both workers and 
employers. You don't have to take my word for it. Today we will 
hear from a small business employer on why this policy is, in 
fact, good for business.
    Employers in states that have adopted a paid leave program, 
largely report that it is more convenient to administer and 
improves competitiveness. In fact, support for national paid 
leave policy among both large and small businesses is quickly 
growing.
    The Federal Government, as the largest employer in the 
Nation, can and must serve as an example in creating a family 
friendly workplace. According to a 2018 survey by the National 
Partnership for Women and Families, 84 percent of Americans 
support paid family and medical leave, including large 
majorities of Democrats, Independents, and Republicans.
    I have introduced versions of this bill since 2000, often 
with Republican support. This should be an issue that has the 
kind of bipartisan support in Washington that it has throughout 
the entire country.
    H.R. 564 is an investment in the people who keep the 
government running. We all have an interest in strengthening 
the Federal work force and making sure that the Federal 
Government is an employer that attracts and retains top talent.
    I am encouraged that President Biden and Vice President 
Harris have made universal paid leave a cornerstone of their 
ambitious American Families Plan. In addition to establishing a 
national paid leave program, the American Families Plan would 
make childcare more affordable, invest in early and post-
secondary education, and make permanent tax credits that help 
working families, like the child tax credit. These provisions 
would build the infrastructure needed to bolster economic 
recovery and help American families.
    I look forward to working with my colleagues in Congress on 
both sides of the aisle to advance the administration's plan to 
help families emerge from the pandemic stronger and more 
financially secure for the future.
    The Comprehensive Paid Leave for Federal Employees Act is 
one piece of the vision the administration has laid out. It 
will strengthen the Federal work force over the long term, and 
it is a roadmap for the Federal Government to lead by example 
in creating a fair and safe workplace for American families.
    With that, I recognize the distinguished ranking member 
from the great state of Kentucky, Mr. Comer, for his opening 
statements.
    Mr. Comer. Well, thank you, Madam Chair.
    Today's hearing, ironically, is titled ``Leading by 
Example.'' But this committee is holding the hearing remotely 
when we could walk down the hallway and meet in person to 
conduct committee business just like Judiciary did last night, 
which is next door to the House Oversight Committee.
    Americans across the country are going back to work. D.C. 
restaurants are open at full capacity now. Cases have 
dramatically dropped across the Nation and Members of Congress 
can all gather on the House floor at the same time.
    But this committee, under Democrat leadership, refuses to 
meet in person to do its work and, instead, hides behind 
computer screens. This goes against science, it goes against 
common sense, and this is not leading by example.
    Madam Chair, it is past time for the committee to work in 
person like just about every other committee in Washington. We 
do better work in person. We must lead by example and get back 
to normal operations, just like most Americans are expected to 
do.
    Moving on to today's committee hearing, Oversight Democrats 
have called a hearing on enhanced work perks for Federal 
bureaucrats. That's right.
    More benefits for Federal employees who already enjoy job 
security and a lavish set of benefits not afforded to most 
American workers.
    This follows the Biden administration's recent announcement 
delaying the Federal work force's return to the workplace, 
despite most Americans being expected to show up for work.
    Meanwhile, hard-working Americans across the country are 
still recovering from the economic impacts of Democrat 
lockdowns and our Nation is facing many crises due to President 
Biden's disastrous policies.
    The Oversight Committee's time would be better spent 
focused on our committee's mission of identifying and 
preventing government waste, fraud, abuse, and mismanagement, 
and ensuring the government is transparent and accountable to 
the American people.
    Unlike Democrats, Republicans have been focused on 
fulfilling our committee's mission. On February 11, 133 days 
ago, Republicans called for a hearing on massive unemployment 
fraud in California, where benefits were sent to murderers on 
death row, deceased individuals, and organized crime members in 
China and Russia.
    Chairwoman Maloney refused to hold a hearing on this gross 
mismanagement of taxpayer dollars, and now, it is reported that 
400 billion dollars in pandemic assistance unemployment 
benefits were stolen, with as much as half the funds going to 
international crime organizations.
    Last week, Republicans called for a hearing on the heist of 
the century, but the chairwoman has not responded, 
unfortunately, to our hearing request.
    On February 24, 124 days ago, Republicans called on 
Chairwoman Maloney to compel New York Governor Andrew Cuomo to 
testify under oath regarding his deadly order sending COVID-
positive patients to nursing homes, and his subsequent cover-
up.
    This is a gross abuse of power and Governor Cuomo must be 
held accountable for his actions that resulted in the death of 
thousands of senior citizens. But have Democrats subpoenaed 
Governor Cuomo, let alone called a hearing on this issue? No.
    On February 25, 123 days ago, Republicans called for a 
hearing on reopening America's schools. Ongoing virtual school 
has harmed students' well-being. Failing grades, mental health 
issues, and suicides are up across the board.
    Since we called for a hearing, we have learned that 
President Biden's CDC allowed a radical teachers union to 
interfere in its scientific guidance, effectively recommending 
90 percent of schools remain shuttered.
    Now that the school year has ended, only about half of 
public schools finished up the school year fully in person. 
Have Democrats held a hearing on this pressing issue which 
threatens to set back a generation of kids? No.
    On March 4, 112 days ago, Republicans called on Democrats 
to hold a hearing on President Biden's border crisis. We 
renewed our request two additional times since then.
    Since President Biden assumed office, masses of children 
have been held in overcrowded facilities during a pandemic and 
past the legal timeframe. Apprehensions at the Southwest border 
are at a 21-year high. The human smuggling industry is booming 
and deadly drugs like fentanyl are pouring across our border.
    This is the very definition of government mismanagement and 
is ripe for congressional oversight. The Democrats held 
multiple hearings on conditions at the border and conducted 
several site visits to border facilities during the Trump 
administration. But now that a Democrat occupies the White 
House, crickets. Nothing.
    On April 26, 59 days ago, Republicans called for a hearing 
on Mayor Bowser's solitary confinement of D.C. inmates. Under 
the excuse of pandemic precautions, inmates, essentially, have 
been held in universal solitary confinement as they are 
confined to their cells for 23 hours a day.
    This has resulted in severe effects on the inmates 
including many sleeping at odd hours of the day, talking to 
themselves, others growing extensive beards and hair because 
the barber shop is closed.
    This government abuse should be investigated, especially 
since it is happening in the district which is under this 
committee's jurisdiction. The Democrats have failed to address 
this issue.
    On May 24, Republicans called for an investigation into the 
Wuhan lab leak. There is evidence Communist China started the 
pandemic, covered it up, and is responsible for the deaths of 
almost 600,000 Americans and millions more worldwide.
    These questions are not a diversion, as Speaker Pelosi has 
stated. They get to the truth and accountability. And what is 
the Democrat's response? They are too busy investigating the 
Trump administration to have time to determine the origination 
of the COVID pandemic.
    And last week, Republicans called for a hearing on the 
massive leak of sensitive taxpayer information from the IRS. 
This committee has a history of conducting strong oversight 
over government officials at the IRS who abuse their position 
for political gain while thwarting congressional accountability 
and oversight.
    This committee must convene a hearing with Biden 
administration officials to understand who is responsible for 
these leaks of sensitive tax information.
    We must also determine what effects, if any, the 
administration has taken to prevent this from ever happening 
again. We are awaiting a response from the distinguished 
chairwoman.
    Madam Chair, it is past time for this committee to get back 
to its primary mission. We have already dramatically expanded 
paid leave for the Federal work force.
    Today's hearing to consider expanding paid leave even 
further for Federal workers shows Democrats' priorities are 
incredibly distorted.
    The American people are concerned about the ongoing border 
crisis, abuses of power in government, getting their kids back 
to school, and the rising cost of goods and services, better 
known as inflation.
    We need to put the American people first, not the special 
interest of Federal bureaucrats.
    I yield back the balance of my time.
    Chairwoman Maloney. The chair recognizes herself to respond 
to my dear friend and colleague from the other side of the 
aisle.
    I doubt that the women in the great state of Kentucky think 
that having a child is a, quote, ``perk.'' It is not a perk, 
and too many of us have been fired, fired, thrown out of the 
room, told not to come back because you dared to have a child.
    Many women have sick children, and when they are sick, they 
need their mother. If your child is traumatized, if your child 
is sick, what's wrong with giving them paid leave to be there 
to be with them?
    We both know that most women have to work. Most women have 
to work. Most families depend on two incomes. They can't make 
it on one income.
    I have--I have Federal employees call me asking, when is 
the bill going to pass so I can have a child? I can't even 
afford to have a child, because they are going to be fired. 
They are not going to be paid when they are out with their 
child, and they need to be with their child in those critical 
first weeks of life. This is not a perk we are talking about.
    My brother was in Vietnam. When he was deployed, it was 
traumatic to his family. They would have liked to have been 
with him. They would have liked the time to adjust with three 
small children. But he was sent into the war zone.
    So, I mean, deployment of our military is serious business. 
It is not a perk. It's a--it's a crisis in most families, and 
what we are talking about is balanced policies that I will say 
that most countries in the world already have, even Third World 
countries. We are the greatest country in the world. Can't we 
respect our workers?
    And I would like to respond to my colleagues on the other 
side of the aisle that are always very protective of the 
private sector, and I am too. They are very important. They pay 
all the taxes for this country.
    But the private sector is far ahead of the public sector in 
how they treat their employees. They have in-building daycare 
centers. They have a birthing--they have milking centers.
    They have support. They have paid leave. They have, you 
know, working from your home leave. They have all of these 
things that the Federal Government does not have.
    And let me tell you, when I had my first child and went to 
Personnel to talk about leave, they said leave. We just want 
you to leave. I said, I don't want to leave. They said, you 
will be the first person in the history of this establishment 
that has had a baby and come back.
    I said I am coming back. They said, well, you can apply for 
disability. I said, having a child is not a disability. It is a 
joy. It is a family value. It is something we should celebrate, 
not punish women for. We should celebrate them. Give them the 
support that they so justly deserve in our society.
    We talk about family values. Where are they? My whole life 
I have fought for a balance between work and family because I 
suffered it in my own family. Only recently are people 
seriously talking about it.
    When President Biden announced it, I felt like I had died 
and gone to heaven, that all of these issues that I had cared 
about, work/family balance, were being talked about, seriously, 
by the President of the United States.
    It is our job to try to implement them and that is what we 
are doing today. And if you do a study comparing the private 
sector to the public sector, the private sector is doing a much 
better job in adjusting and really doing work/family balance 
within their companies. Most of them have paid leave. Most of 
them have on-campus daycare. Most of them have all kinds of 
services for their employees and the Federal Government needs 
to keep pace.
    We know that we can't pay the same salary as the private 
sector. We know that. We have to find people that are committed 
to public service. But we also have to help them balance their 
families with the work that they have.
    I now recognize the----
    Mr. Comer. Madam Chair, with all due respect--with all due 
respect----
    Chairwoman Maloney. Reclaiming my time.
    Mr. Comer. No, Madam Chair. You went way over your time. 
You went way, way over your time. No.
    Madam Chair, what the Democrats don't understand
    [inaudible] are employees, too, and if employers can't get 
people to come to work because----
    Mr. Raskin. Regular order. Regular order.
    Chairwoman Maloney.--paid family leave.
    Mr. Comer. You don't understand. There is a disconnect. You 
are living in----
    Mr. Higgins. Someone put the chair in order, please. Will 
the--will the chair restore order?
    Mr. Comer. The taxpayers are sick and tired of giving more 
benefits and more perks to Federal employees because they have 
to pay for those benefits and perks.
    Mr. Connolly. Madam Chairwoman?
    Mr. Comer. And you want to raise their taxes even more.
    Mr. Connolly. Parliamentary inquiry, Madam Chairwoman.
    Am I recognized?
    Chairwoman Maloney. Mr. Connolly--Mr. Connolly, you are now 
recognized for two minutes.
    Mr. Connolly. I thank the chairwoman, and I thank the 
chairwoman for holding this important hearing. And I add my 
voice to hers how saddened I am at the diminution of this 
critical issue by the ranking member and all too many of his 
colleagues on the other side of the aisle, and the desire to 
distract us from the disastrous policies of the four Trump 
years, including, I might add, their management of the 
pandemic, which is nothing short of catastrophic and tragic and 
cost hundreds of thousands of lives.
    I guess the ranking member doesn't want us to remember that 
the president, President Trump, actually advised people to 
consider the ingestion of Clorox and other disinfectant.
    Mr. Higgins. Lie. Lie. That is a lie and you know it.
    Mr. Connolly. Madam Chairwoman--Madam Chairwoman, I have 
the floor.
    And, you know, you can shout lie on it. That doesn't make 
it true. In fact, he did say that. It was publicly seen. So, I 
am saddened by the attempt to somehow distract us from the 
subject of this hearing.
    In fact, I was proud to hold the first hearing on this 
issue on your behalf, Madam Chairwoman, and proud to serve as 
an ally with you in the effort to renew our commitment to 
helping families meet the increasing demands of parenthood and 
family caregiving responsibilities.
    The Comprehensive Paid Leave and Federal Employees Act, 
H.R. 564, continues our committee's effort to support civil 
servants and their families.
    Paid family leave would ensure the Federal Government is 
the model instead of the, you know, laggard in protecting 
families and our employees who work so hard, especially during 
this pandemic, on behalf of the American people. They are not 
bureaucrats. They are dedicated public servants.
    In September 2019, our subcommittee held----
    Mr. Sessions. Madam Chairman, that time--that time has 
expired.
    Chairwoman Maloney. The gentleman's----
    Mr. Connolly. Madam Chairwoman, I would ask a little 
indulgence because I had to seek recognition over the 
unrecognized----
    Chairwoman Maloney. The gentleman may finish. The gentleman 
may finish.
    Mr. Connolly. I thank the chairwoman. And we were 
successful. But we made the victory lap short because there was 
more work to do. Today, we continue to fight for paid family 
care giving leave and leave to care for one's own medical 
needs.
    The Comprehensive Paid Leave and Federal Employees Act 
would provide paid leave to Federal employees for reasons that, 
largely, mirror the Family Medical Leave Act of 1993, care for 
family, self, or other qualifying reasons that often surround 
active military duty.
    Data show that paid family leave----
    Mr. Sessions. Madam Chairman, the gentleman is not 
finishing his--finishing his sentence. He is continuing on, and 
the gentlewoman knows we are attempting to have regular order, 
not go through each and every person. And I would ask for two 
minutes when the gentleman does finish. Thank you, Madam 
Chairman.
    Chairwoman Maloney. The gentleman makes a good point. Mr. 
Connolly, may we now move to Mr. Hice, and I will give you as 
much time at the end of the hearing to complete every statement 
plus the other time during the----
    Mr. Connolly. Of course, Madam Chairwoman.
    Chairwoman Maloney. I now recognize--OK. I now recognize 
Mr. Hice for two minutes for an opening statement.
    Mr. Hice. Thank you, Madam Chair.
    And I would just say, too, it is time for us to meet in 
person. You cannot lead by fear, and other committees are 
meeting in person. We had Natural Resources in person 
yesterday. It is time that Oversight leads by example itself.
    Republicans believe the Federal employees should get the 
job done for the American people and that they should be held 
accountable for doing so.
    Under President Trump's executive orders, Federal employees 
could be held accountable. That is what the American people 
deserve and that is even what Federal employees themselves 
want.
    Through his executive order on official time, he sought to 
ensure that Federal employees actually did the job they were 
hired to do--how novel--instead of doing what a union wants 
them to do.
    Democrats, on the other hand, seem to care less about these 
things. A key component of the Democrat return-to-work plan is 
to make sure as many Federal employees as possible don't 
actually have to come back to work.
    What kind of a great idea is that? They are pushing 
permanent expanding--expanded telework, without understand what 
the impact has been, nor what it will be.
    I, personally, have asked IGs across Federal agencies to 
conduct an assessment so that we could at least have some data 
on this. And now today, we are looking at ways to give Federal 
employees even more time off on the backs of the American 
taxpayer.
    So,Democrats' agenda for the Federal work force issues 
could be summarized as this.
    Here is the summary of the Democrats' plan. Come to work as 
little as possible, and when you do come don't worry about 
doing your job. That is where we are headed with this thing.
    Congress just provided paid parental leave for Federal 
workers, and now the majority is trying to expand paid leave 
for all categories in the Family Medical Leave Act. Combined 
with Federal holidays and annual leave, Federal employees now 
only have to work about eight months out of the year. Eight 
months out a year.
    Are you kidding me? This is absolute insanity, and this is 
what we are told is leading by example, getting where employees 
don't have to come to work for four months out of the year?
    The majority doesn't even know how much this program is 
going to cost. Oh, but I can tell you who is going to pay the 
cost. It will be the American taxpayer. The majority doesn't 
even know the consequences of this.
    The Biden administration has released a tidal wave of 
wasteful and unnecessary pandemic aid that now threatens to 
swallow our country up in inflation and out of control 
spending.
    Meanwhile, here in this committee, it appears as though we 
are trying to create some sort of Gilligan's Island so that we 
can insulate Federal workers from the issues that the rest of 
the world is facing.
    Madam Chair, I would agree that it is time to lead by 
example both in having our meetings held in person, but also to 
have common sense to some of the issues that we bring as a 
topic of discussion for this committee.
    And with that, I yield back.
    Chairwoman Maloney. The gentleman yields back. We now will 
move to witnesses and introductions.
    Before I introduce our panelists, I want to recognize Mr. 
Welch from the great state of Vermont to introduce Mr. Sorkin, 
who is a constituent of his.
    Mr. Welch. Thank you. Thank you very much.
    Very briefly, we are quite proud of our small businesses in 
Vermont, and I know that is true for Mr. Comer and my friend, 
Pete Sessions.
    They are family affairs, and the folks who are going to 
testify, Eric Sorkin and his wife, Laura, have Runamok Maple. 
They have 75 employees, and they are taking maple syrup--and I 
would like to share some with some of my colleagues. Theirs is 
fantastic. It is really helping the Vermont economy.
    They have 75 employees and one of them had cancer. His wife 
had cancer. He couldn't leave work because he was--he couldn't 
afford to lose the paycheck and he was absolutely fearful about 
not having income. The Sorkins decided this doesn't work. This 
is like a family member.
    And you know what? I know in Georgia, in Texas, all around, 
we have got these small businesses where it is like a family. 
They started a family leave policy, and they were able to 
support, at great expense to them, this family leave to let 
that partner take care of his partner.
    So, they are going to testify about this, and we need to 
help our small businesses where it is enormous financial 
pressure to deal with their commitment to their own employees, 
who they regard as family.
    So, I look forward to introducing Mr. Sorkin and working 
with the committee to see if we can make progress on family 
leave. Thank you.
    Chairwoman Maloney. Thank you so much, Mr. Welch.
    Our next with witnesses Everett Kelley, who is the national 
president of the American Federation of Government Employees.
    Then we will hear from Vicki Shabo, who is a senior fellow 
for paid leave policy and strategy in the Better Life Lab at 
New America.
    We also have Hadley Heath Manning, who is the director of 
policy at the Independent Women's Forum.
    Finally, we will hear from Lelaine Bigelow, who is the 
interim vice president for economic justice and congressional 
relations at the National Partnership for Women and Families.
    The witnesses will be unmuted so we can swear them in, 
please. Please raise your right hands.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [Witnesses are sworn.]
    Chairwoman Maloney. Let the record show that the witnesses 
answered in the affirmative. Thank you.
    Without objection, your written statements will be part of 
the record.
    With that, Mr. Kelley, you are now recognized for your 
testimony.
    Mr. Kelley?

   STATEMENT OF EVERETT KELLEY, NATIONAL PRESIDENT, AMERICAN 
               FEDERATION OF GOVERNMENT EMPLOYEES

    Mr. Kelley. OK, I think I am ready now.
    Thank you, Chairwoman Maloney, Ranking Member Comer, and 
the members of the committee. I thank you for the opportunity 
to testify on the importance of comprehensive paid family 
leave.
    Today, I want to talk about the critical need for this 
benefit for Federal workers and how it will improve 
recruitment, retention, and employee morale.
    I believe that caring for others is the very foundation of 
a Federal employee's decision to serve the American public.
    AFGE represents Federal employees who inspect the food we 
eat and places we work. They protect citizens from the illicit 
flow of drugs, maintain the safety of our Nation's borders, 
care for our Nation's veterans, serve as a vital link to Social 
Security recipients, you know, and keep the national defense 
system prepared for any danger, protecting the flying public, 
and respond to natural and manmade emergencies.
    We greatly appreciate Chairwoman Maloney for introducing 
the Comprehensive Paid Leave for Federal Employees Act to 
provide Federal employees with 12 weeks of family leave for all 
instances covered under the Family and Medical Leave Act, FMLA.
    No Federal employee should ever have to choose between 
caring for a loved one and keeping his or her job. I have heard 
countless stories from AFGE members who have had to make the 
choice between being able to support their families financially 
or supporting a loved one, or taking care of themselves before 
they are ready to return to work.
    I have heard stories from VA nurses, civilian defense 
employees, correctional officers, Social Security claims 
adjustors, EPA attorneys, and meat inspectors that is caring 
for their elderly grandparents, their parents, children, and 
spouses.
    These hard-working civil servants provide care for loved 
ones suffering from Agent Orange exposure, cancer, traumatic 
brain injuries, and the consequences of accidents that no one 
saw coming.
    Opponents have raised objections to the cost of providing 
paid leave to Federal employees. CBO last estimated the cost of 
the 2010 to 2014 period.
    So, we don't know exactly how much it will cost today, but 
we estimate that it will be minimal compared to the cost of 
hiring and training new employees due to turnovers due to lack 
of comprehensive benefits.
    Opponents also assert that Federal employees already have 
enough paid leave, and that they save it for emergencies or 
were more prudent in its use. It wouldn't be necessary to have 
paid family leave for their compensation.
    Now, these arguments miss the point entirely, you know, of 
paid family leave. It is, you know, unpredictability of the 
circumstances when paid family leave might become necessary. 
That is the reason for the benefit.
    Now, telling a Federal employee not to use sick or annual 
leave because of the possibility of medical disaster striking a 
family member ignores the very serious and the reasons of paid 
annual and sick leave existence in the first place.
    If anyone doubted the value of paid sick leave prior to the 
pandemic, the risk to fellow workers of coming into work with a 
contagious disease should have changed their mind. COVID-19 is 
not the only virus that can spread at a workplace.
    It is, clearly, in the interest of any employers, 
especially an employer who works or interacts with the public 
to allow workers to stay home when they are ill.
    Thus, using annual leave for rest and use of sick leave for 
recuperation from illness would never be discouraged.
    Emergencies don't happen to only those with decades of 
employment and the opportunity to accumulate stores of paid 
leave. They happen to any and everybody.
    Federal employees are only able to accumulate a maximum of 
30 days of annual leave, not enough time for other potential 
instances covered under FMLA.
    By most conservative estimates, it would take a Federal 
worker who takes two weeks of annual leave and three weeks of 
sick leave per year close to five years to accrue enough sick 
and annual leave to receive pay during the 12 weeks of family 
leave allowed on FMLA.
    Even if a Federal worker never got sick and never went on 
vacation, it would take over two years to accumulate enough 
leave to pay for 12 weeks of family leave. Paid family leave 
would undoubtedly improve recruitment and retention of talented 
workers who might leave for other jobs that provide such leave.
    The Federal Government currently reimburses contractors and 
guarantees the cost of providing, you know, paid leave to their 
workers. Taxpayers are paying for this. If it is OK for 
contractors and those who get Federal grants, it should be OK 
for Federal employees.
    The COVID pandemic showed the critical need for paid leave 
for Federal employees to be able to perform the mission of the 
agency and to have time for dependent care needs.
    This concludes my statement. I will be happy to answer any 
question that you might have, and, again, thank you for the 
time that you have given me today on this most important issue.
    Chairwoman Maloney. Thank you. The gentleman yields back.
    Ms. Shabo, you are now recognized for your testimony.

STATEMENT OF VICKI SHABO, SENIOR FELLOW, PAID LEAVE POLICY AND 
      STRATEGY, BETTER LIFE LAB, ON BEHALF OF NEW AMERICA

    Ms. Shabo. Thank you, Chairwoman Maloney. Good morning. 
Special thanks to you for your tireless leadership on Federal 
workers paid leave and FMLA expansions over many, many years, 
and thanks to members of the committee who have engaged 
thoughtfully in dialogs about paid leave since the committee's 
last hearing in 2019.
    I am Vicki Shabo, a senior fellow for paid leave policy and 
strategy at New America's Better Life Lab, though the views I 
express here are my own.
    The pandemic has shown us that we must do better in how 
public policies enable us to care for ourselves and one 
another, and it has underscored that universal paid leave is a 
must have.
    Momentum toward expanding paid leave had been growing prior 
to the pandemic. Now, 10 states have adopted paid leave 
programs, but there are still more than 100 million workers 
left behind.
    Just one in five private sector workers have access to paid 
family leave to care for a new child or a seriously ill loved 
one. Just two in five have access to employer-provided 
temporary disability insurance for a personal medical leave 
lasting weeks or months.
    For family leave, there are huge disparities. Thirty-eight 
percent of the highest wage workers, but just five percent of 
the lowest wage workers, have access to paid family leave 
through their jobs, and access for those higher wage workers, 
while it has grown 20 percentage points in the last 10 years, 
for lower wage workers it has only grown two percentage points.
    Too often, critics ask how can we afford a national paid 
family and medical leave program. But I think the question we 
have to ask instead is how can a country continue to bear 
enormous, unaffordable, and unsustainable costs of the status 
quo.
    Lack of paid leave costs a typical family more than $9,000. 
It reduces mother's earnings. It means hundreds of thousands of 
dollars lost in older workers' earnings and retirement savings. 
For businesses, it means losing workers, absorbing costs of 
turnover, and for smaller businesses, difficulty competing for 
talent.
    For the economy, it contributes to $500 billion lost 
annually.
    Congress has made strides on paid leave in recent years, 
including the 12 weeks of paid parental leave for Federal 
workers and temporary limited measures put in place for the 
pandemic.
    But now it is time for next steps. For Federal workers, I 
urge you to enact the Comprehensive Paid Leave for Federal 
Employees Act to make the Federal Government a high-functioning 
employer of choice for four important groups of workers that 
will help make the Federal work force diverse and inclusive, 
and contribute to better inputs and better outcomes.
    So, first, younger workers. Parental leave alone is not 
enough to attract younger workers to replace the large numbers 
of Federal employees who are at or approaching retirement age.
    Generation X, Millennials, and Gen Z are all increasingly 
caring for older adults, and often for both children and older 
loved ones at the same time.
    Second, women and people of color both bear 
disproportionate caregiving responsibilities, often in multi-
generational households, and the Federal Government has a lot 
of work to do to attract these workers to be public servants. 
Just 43 percent of Federal workers are women, and workers of 
color are underrepresented at senior levels.
    Third, hiring people with disabilities is a stated goal of 
the Federal Government, and paid leave is a workplace benefit 
that most lack. It could help to distinguish the Federal 
Government as an employer of choice while also mitigating 
stigma.
    But we have to look beyond the Federal Government as an 
employer and focus on the Federal Government as an investor in 
people, businesses, and the economy. As we emerge from a deadly 
health crisis that has exacerbated gender, racial, and economic 
disparities and weakened the work force, it is time for paid 
leave for all as a national priority.
    State-paid family leave experiences show us the value we 
can expect from a well-crafted, well-implemented national paid 
leave plan.
    First, women's labor force participation, attachment, and 
increased earnings.
    Second, children's improved health and healthcare 
utilization.
    Third, men's greater engagement in the lives of children 
and families.
    Fourth, better health outcomes and reduced healthcare costs 
for ill, injured, or disabled people and more economic security 
for their caregivers.
    Fifth, savings to Medicaid, reduced need for SNAP and 
public assistance.
    And sixth, retention benefits for businesses, especially 
small businesses.
    The president's American Families Plan, the DeLauro Family 
Act, and Chairman Neal's Building an Economy for Families Act 
each propose public investments and paid leave for all working 
people, no matter where they live or work, their job, or their 
serious personal health or family care need. These proposals 
make available paid leave for everyone, comprehensive, neutral, 
gender equal paid leave with adequate wage replacement and 
inclusive definition of family.
    Employers can do more. Nothing in these programs would 
limit their flexibility. Paid leave rewards work, strengthens 
people's attachment to the work force, and promotes employee 
retention.
    The plans under consideration would reduce a worker's 
losses by up to 85 percent, compared to unpaid leave. National 
paid leave would boost GDP by up to $2.4 trillion by enabling 
more people to work, and would boost demands for goods and 
services by increasing household incomes.
    But at the end of the day, this is about values that unite 
us like love, responsibility, dignity, and care. It is about 
being by the side of a loved one who is dying or recovering, 
seeing a baby's first smile, or getting the medical treatment 
you need without sacrificing the well being of the family you 
love and support. Paid leave is not a pipe dream. It is not a 
luxury and it is not a necessity.
    I look forward to working with you to make paid leave for 
all a reality. There is no time to waste, and I am excited to 
answer questions.
    Thank you.
    Chairwoman Maloney. Thank you.
    Mr. Sorkin, you are now recognized for your testimony.
    Mr. Sorkin?

STATEMENT OF ERIC SORKIN, CO-OWNER AND CHIEF EXECUTIVE OFFICER, 
                         RUNAMOK MAPLE

    Mr. Sorkin. Thank you, Chairman--Chairwoman Maloney, 
Ranking Member Comer, and members of the committee for this 
opportunity. Thank you also, Congressman Welch, for the very 
generous introduction and for your steadfast support of small 
businesses throughout the pandemic.
    I appreciate the opportunity to testify today on the urgent 
need for robust public investment in care infrastructure, 
including paid family medical leave.
    Thank you, in particular, Chairwoman Maloney, for your 
strong leadership and commitment to expanding paid leave 
through the Comprehensive Paid Leave for Federal Employees Act.
    My name is Eric Sorkin and together with my wife, Laura, we 
own and operate Runamok Maple, a maple syrup manufacturing 
business with 75 employees in Fairfax, Vermont. I am also 
speaking today as a member of Main Street Alliance, a national 
network of more than 30,000 small business owners.
    The importance of paid family medical leave became crystal 
clear to me during our first few years in business. At the 
time, we had just about 10 employees.
    I had learned that the wife of one of our employees was 
losing a battle to terminal cancer. This happened in the middle 
of the sugaring season, when the hours are long and 
unpredictable. Our employee had been coming into work in the 
middle of this terrible family ordeal because he wasn't in a 
position to miss a paycheck or risk losing his job. Put 
succinctly, he believed he couldn't afford to spend time with 
her, even though he desperately needed to.
    In that moment, without even realizing it, we launched our 
companies paid family and medical leave policy. We told our 
employee to take the time he needed to care for his wife, and 
we continued to pay him while he was out.
    Even with our small team, it wasn't a remotely hard 
decision. Nobody, least of all the--least of all those in the 
most precarious financial positions, should have to choose 
between getting paid or taking care of loved ones or their 
health.
    Likewise, why do we embrace a system where small business 
owners feel as though they must choose between their own 
profitability and the well being of their employees? It is a 
recipe for poor choices and bad outcomes on both sides.
    Since then, numerous members of our team have been out for 
extended illnesses, to care for loved ones, and for maternity 
leave. Just in the past few months, one of our longtime 
employees contracted viral meningitis, and was out for weeks as 
he battled a persistent fever and delirium. Another employee 
was sexually assaulted and has struggled with her mental health 
since.
    The last thing either of them needs is the added worry are 
we are getting paid. Things happen and none of us can predict 
when. As business owners, we do everything we can to support 
our employees and hope that they want to do the same for us.
    While I personally believe that the return on paid leave is 
many times the expense, paying for family medical leave is 
costly. The financial burden on our own business has been 
significant, particularly during the early years before we were 
profitable.
    Several times, including as recently as a year ago, we have 
looked into short-term disability insurance. We hoped this 
might be a solution, but, unfortunately, we found the policies 
available to companies of our size both inadequate and 
unaffordable.
    That is why I, along with many other Vermont small business 
owners, have been active in a state campaign to win paid family 
medical leave. The idea is straightforward. You know, we set 
aside a few dollars each week per employee into a fund. Then 
when an employee goes out on leave the fund then pays that 
employee's salary. In return, as an employer, I have their 
salary to hire a replacement worker or cover overtime.
    A solution such as this would be a huge improvement over 
the current system, where we face unpredictable and sharp cost 
hikes when someone goes out on leave. A majority of small 
business owners across the political spectrum support a public 
solution, and that support remains high after paid leave 
programs have been implemented in those states.
    If we didn't know it before, COVID brought the point home. 
As a business, prioritizing employee safety goes hand in hand 
with protecting our business and the health of our community.
    Speaking for my business, the challenges were quite 
significant, and about 80 percent of our frontline workers 
needed time off during COVID, either to quarantine or to 
recover.
    As a small company, absorbing all those costs in such a 
short period of time would have been a tremendous challenge. 
The passage of the federally enacted Families First Coronavirus 
Response Act was extremely helpful to our company as we 
navigated COVID.
    The legislation made what could have been tough decisions 
easy, and was critical to our business during this time. Doing 
the right thing as a small business owner should always be this 
easy.
    Asking us to cover these expenses out of pocket is really 
asking for quite a lot and the alternative, asking for workers 
to go without coverage, is simply no solution at all.
    America is a nation made up of small businesses and those 
who work for them. By creating a national paid leave solution, 
we are creating a more level playing field for workers and all 
of our small business owners.
    As Congress considers a long-term economic infrastructure 
and recovery package, a national permanent paid leave policy 
and program must be a priority. Paid leave is not just what 
small business employees deserve. It is vital to keeping our 
entire community safe and our economy resilient.
    Thank you for your time and attention. I look forward to 
answering any questions you may have.
    Chairwoman Maloney. Thank you. The gentleman yields back.
    Ms. Manning, you are now recognized for your testimony.

    STATEMENT OF HADLEY HEATH MANNING, DIRECTOR OF POLICY, 
                   INDEPENDENT WOMEN'S FORUM

    Ms. Manning. Thank you. My name is Hadley Heath Manning, 
and I am director of policy for Independent Women's Forum, and 
I am a Senior Blankley Fellow at the Steamboat Institute.
    I am also the mother of three young children, and I have 
taken three paid maternity leaves in the last five years. So I, 
certainly, personally appreciate the importance of this issue.
    In my role at IWF, I also manage a group of female 
employees. We frequently have staffers out on maternity leave, 
so I understand how this issue impacts employers as well.
    Expanding access to paid family medical leave is a noble 
goal, a goal that I support. But the real question is how. 
Lawmakers should keep in mind that the government is, in some 
ways, a unique employer and should not serve as a model for all 
private sector employers who are diverse in size, industry, 
labor force, and resources.
    The government can increase taxes or use deficit spending 
to fund new benefits for employees. Private sector employers 
cannot.
    Many American businesses suffered or shuttered as a result 
of the COVID-19 pandemic and are still-- still struggling to 
recover, if they will at all. Those businesses are not 
contemplating a vast expansion of benefits for their employees 
because they simply lack the resources.
    It would do those private businesses more harm than good at 
this moment to require that in order to open their doors or 
create new jobs they must offer a generous comprehensive paid 
leave benefit to follow the model set by this proposed 
legislation.
    The trend toward better access to paid leave in the United 
States actually tracks closely with economic trends. At the 
height of the pre-pandemic economy, more and more U.S. 
employers were offering paid leave as a way to attract and 
retain workers in a tight labor market.
    One question for lawmakers to consider today is whether the 
Federal Government now as an employer needs to enhance the 
compensation and benefits it offers in order to compete for 
labor.
    If the answer is no, then to offer greater benefits than 
necessary is simply poor stewardship of taxpayer dollars. In 
reality, the Federal work force already has access to more 
benefits than private sector workers and, on average, Federal 
employees are compensated better.
    The average salary among Federal workers is $85,000. This 
is significantly greater than the median total household income 
for the general U.S. population. Over 50 percent of employees 
have a bachelor's degree or higher compared to 36 percent in 
the general population.
    This means that the Comprehensive Paid Leave for Federal 
Employees Act would be taxing a relatively less resourced 
general population to provide special and, perhaps, unnecessary 
benefits for Federal workers, an already relatively privileged 
group.
    Similarly, other proposed legislation, like the Family Act, 
would create a national paid leave entitlement and would also 
exacerbate income inequality.
    Government paid family medical leave programs have been 
shown to distribute money from low-income workers to those with 
higher incomes.
    Studies from California, New Jersey, Canada, Sweden, 
Iceland, Belgium, and Norway have demonstrated this, and the 
scholars concluded in Norway these programs constitute a, 
quote, ``pure leisure transfer to middle-income families at the 
expense of some of the least well off in society,'' end quote.
    This is regressive, not progressive. Given that the problem 
of a lack of paid family medical leave is most pronounced among 
low-income people, lawmakers should not establish a program or 
policy that disadvantages this group further.
    Another potential downside of comprehensive paid leave 
benefits for the Federal work force and beyond is that this 
benefit may actually create an incentive for discrimination 
against certain groups, including women, elderly workers, and 
workers with significant medical issues because these groups 
are more likely to take advantage of those leave benefits and 
employers know this.
    Pew Research has, in fact, documented the strong positive 
correlation between more generous paid family medical leave and 
wider gender pay gaps in 16 OECD countries.
    Finally, we must consider costs. Sadly, so far, there has 
been no cost estimate for the Comprehensive Paid Leave for 
Federal Employees Act.
    But in addition to the hard cost to taxpayers, the Federal 
Government will face other costs when workers are not present 
at their jobs, while they are using the new benefits that are 
offered in this proposed legislation.
    While we all want workers with family and medical 
emergencies to have the option to take time away from work, the 
flip side for employers is increased absenteeism and turnover.
    Employers and fellow employees alike will take on the 
burden of covering for workers who are out on leave or, in the 
case of the Federal Government, the institution that we all 
rely on to do the people's work may become slower, less 
efficient, and less responsive to the citizens that it serves.
    The government is unlike other employers in many ways, 
which is why it should not be the model for comprehensive paid 
family leave.
    Rather than instituting a one-size universal--a one-size-
fits-all universal policy, lawmakers should focus any 
government intervention on helping those who need support most, 
while otherwise allowing businesses and employees to continue 
to find their own personalized solutions that work best for 
them.
    Thank you.
    Chairwoman Maloney. Thank you. The gentlelady yields back.
    Ms. Bigelow, you are now recognized for your testimony.

   STATEMENT OF LELAINE BIGELOW, INTERIM VICE PRESIDENT FOR 
    ECONOMIC JUSTICE AND CONGRESSIONAL RELATIONS, NATIONAL 
                PARTNERSHIP FOR WOMEN & FAMILIES

    Ms. Bigelow. Good morning, Chairwoman Maloney, Ranking 
Member Comer, and members of the committee. My name is Lelaine 
Bigelow, and I am the interim vice president for economic 
justice and congressional relations at the National Partnership 
for Women and Families.
    I am pleased to join you to discuss the importance of paid 
leave for Federal employees, including congressional employees, 
and this issue is deeply personal for me, having spent more 
than a decade working in the administration and in Congress.
    Growing up from modest means, I came to understand the 
importance of access to paid leave when I was just 16, working 
at a family restaurant in Pensacola, Florida. I was surrounded 
by hard-working moms who were servers, and there was one in 
particular, Toni, who left a mark on me.
    When we didn't have a lot of diners, Toni would tell her 
story about how she went into labor at the restaurant, then 
went across the street to the hospital, delivered her baby, and 
was back the next day for the Sunday morning rush. People would 
nod their heads in admiration, but even then, I knew Toni was 
faced with an impossible choice--losing her job and her 
paycheck or caring for herself and her family.
    So, in January 2013, when my husband and I discovered I was 
pregnant, we felt excited and scared. I was working at the 
Department of Housing and Urban Development and he was employed 
by the House of Representatives.
    I recalled Toni's story and knew that I wanted to take the 
full 12 weeks of time off allowed under the FMLA to bond, 
recover, and acclimate to parenthood.
    At the time, the Federal Government did not have a paid 
leave policy. You had to take time off without pay or use your 
accrued leave if you had enough available. Complicating 
matters, in May we found out that I had an incompetent cervix, 
and I was immediately put on bed rest for the next four months.
    Thankfully, I was given a pregnancy accommodation that 
allowed me to work from home while on bed rest. At the time, 
this was unusual, and because it felt like a privilege, I 
worked extra hard throughout my difficult pregnancy to avoid 
the appearance that I was taking advantage of the situation.
    But the diagnosis meant I needed to go to the doctor every 
week and a specialist every few weeks, requiring more time off 
of work. Taking an hour or two each week for doctor's 
appointments chipped away at the time that I was trying to 
save.
    Plus, I was sent to the hospital twice, which eroded my 
time off even more. It was stressful and I was desperate to 
make up time even in the hospital.
    I answered emails and made phone calls because every moment 
I spent caring for myself and my pregnancy meant losing money 
and time later.
    Like so many women of color, I faced the challenge of 
navigating pregnancy health complications without the paid 
leave I needed to care for myself and my family.
    Despite our best efforts, in July, my son, Jack, was born 
six weeks prematurely and was immediately brought to the NICU, 
the Neonatal Intensive Care Unit. That same day, the 
Transportation HUD appropriations bill was on the Senate floor, 
a bill I had been following for my team at HUD prior to the 
birth.
    I kept responding to emails that morning because I didn't 
know how long Jack would be in the NICU and I knew this was one 
more day with a paycheck.
    In the end, Jack Lincoln Bigelow was in the NICU for 10 
days and was on a breathing monitor for six weeks after 
discharge, and nearly eight years later, I can see he is very 
healthy and has more energy than either of his parents 
combined.
    And now, thanks to the tireless efforts of Chairwoman 
Maloney and Chairman Smith, and the other congressional 
champions and advocates around this table, the Federal 
Government began providing 12 weeks of paid parental leave for 
Federal employees last October.
    During the effort to expand access to paid leave for 
Federal employees, I often reflected on my own experience and 
how the emotional, physical, and financial stress of my 
situation could have significantly been different if I had paid 
leave.
    I wonder if I could have carried Jack to full term. So, it 
is clear to me the work mustn't stop here. The United States 
needs a paid family and medical leave program like the one 
outlined in Chairman Neal's Building an Economy for Families 
Act and Chairwoman Maloney's Comprehensive Paid Leave for 
Federal Employees Act.
    A national paid leave policy will provide families 
financial security and peace of mind at some of the most 
challenging moments and making the largest impacts on families 
currently struggling the most.
    It will enable more women to remain in the work force, 
allow parents to invest more time and care in their children, 
and help older Americans to age with dignity and support from 
their loved ones.
    More than 100 million working people in this country cannot 
afford to wait any longer.
    Thank you so much.
    Chairwoman Maloney. Thank you. I thank all of the witnesses 
and I now recognize myself for five minutes for questions.
    Democrats have been fighting for years for comprehensive 
paid family and medical leave. When I was first elected in 
1993, the very first bill that I voted on was the Family and 
Medical Leave Act.
    In my career--my long career, I have gotten more 
compliments on that bill than any other. It meant that women 
and men would not be fired if they had a child they had to take 
leave to take care of them.
    But right after it many of us started work on trying to 
expand it to paid leave. I remember going to meetings with then 
Senator Joe Biden where we started working--and Rosa DeLauro 
and others, working on expanding paid leave, and I am very 
proud of the work that this committee, that COR, did in leading 
the successful passage of paid parental leave for Federal 
employees in 2019.
    [Technical issue.]
    Chairwoman Maloney. OK. We have lost the live stream.
    We are going to pause for a moment. We have lost the live 
stream.
    [Pause.]
    Chairwoman Maloney. The committee will come to order. I 
apologize. This was a--throughout the entire system in 
Congress. We are now reconvening.
    Thank you, and I now recognize myself for five minutes and 
for questions.
    Democrats have been fighting for years for comprehensive 
paid family and medical leave. I was proud to vote for the 
Family and Medical Leave Act in 1994, which granted 12 weeks of 
unpaid leave so that people wouldn't be fired for having a 
child.
    Shortly afterwards, with then Senator Joe Biden, Rosa 
DeLauro, and others, we started working for paid leave. I am 
very proud of the work that the COR committee did in the 
successful passage of paid parental leave for Federal employees 
in 2019.
    But over the last year, we have seen that countless 
families continue to suffer because our Nation still has no 
nationwide paid family and medical leave policy.
    President Biden and Vice President Harris have put forward 
the American Families Plan, which includes an historic 
investment in universal paid leave for every American family.
    Ms. Shabo, why is a nationwide paid leave policy important 
to the pandemic recovery? How will it help American families 
for the future?
    Ms. Shabo. Thank you so much for the question, Chairwoman 
Maloney.
    You know, we saw throughout the pandemic the enormous 
numbers of people who left the work force because of caregiving 
responsibilities and for health needs.
    Some of that had to do with children who were unexpectedly 
out of school or care. Some of it had to do with caring for 
older adults or loved ones who needed care. Some of it had to 
do with the personal health consequences of COVID-19 itself.
    We needed paid leave long before the pandemic. We urgently 
need paid leave coming out of the pandemic. But the pandemic 
brought into sharp relief, in particular, the connection 
between the gendered nature of caregiving and work force 
participation.
    You know, we have nearly 2 million women who are still out 
of the work force, many of them because of caregiving. This is 
an unsustainable phenomenon.
    It will take women more than a year to get back to work 
force participation levels of the--before the pandemic, and 
this is one intervention that will help that, but more than 
that, help create a stronger and more inclusive work force for 
women, for people of color, for people with disabilities, for 
families that are multi-generational for a long time to come.
    Chairwoman Maloney. Thank you.
    Mr. Kelley, would you agree that a permanent expansion of 
paid leave to all Federal employees beyond parental leave will 
help strengthen the Federal work force?
    Unmute, please.
    Mr. Kelley. Thank you, Chairwoman Maloney.
    I, certainly, agree with that because, you know, and I have 
said this before. You know, one of the major problems I think 
that the Federal Government has is that they don't offer a good 
benefits package in order to keep and retain, you know, Federal 
employees.
    So, they will go other places because, you know, other 
players will offer these benefits. So, it is so important that 
we do that.
    Chairwoman Maloney. OK. My bill, the Comprehensive Paid 
Leave for Federal Employees Act builds on paid parental leave 
for Federal employees that was implemented last October.
    The bill will ensure that Federal employees have access to 
paid leave in the event of a personal or family emergency or 
military deployment of a family member.
    Ms. Bigelow, can you explain why all workers and families 
need this kind of comprehensive paid leave?
    Ms. Bigelow? Ms. Bigelow?
    [No response.]
    Chairwoman Maloney. Well, she is having difficulty.
    As we have also heard, a comprehensive paid family and 
medical leave program is good for business. Mr. Sorkin, you 
discussed the reasons why you made the decision to offer paid 
family medical leave to your employees.
    How would a comprehensive national paid leave program help 
small businesses like yours?
    Mr. Sorkin. Thank you, Chairwoman. I appreciate the 
opportunity to respond.
    Well, currently, the burden falls directly on business 
owners and employers to come up with a makeshift solution. 
Either way, that ends up being costly, uncertain, and uneven.
    A national paid leave program would offer predictability 
and peace of mind, and it would also level the playing field 
between big and small businesses.
    Chairwoman Maloney. Thank you.
    And just in closing, the Biden/Harris administration and 
Democrats in Congress will continue to work to enact paid 
family and medical leave for all employees in the Federal 
Government and the private sector.
    I urge my Republican colleagues to work with us to make 
paid family and medical leave a reality for American families.
    And I now yield to the gentleman from South Carolina, Mr. 
Norman.
    Mr. Norman, you are now recognized.
    Mr. Norman. Thank you, Chairman Maloney.
    You know, I am really shocked at this--at even having this 
hearing. This is--I think Clay Higgins said a three-ring 
circus. This is a--this is an insult to the American taxpayer.
    Here's the words I have heard from some of our witnesses: 
love, caring, caregiving. Mrs. Maloney, I think you mentioned 
or one of the witnesses mentioned strengthening the Federal 
work force.
    You know, I don't have to tell anybody listening to this 
hearing, you know, our cities are burning. Our police forces 
are being decimated because they are being defunded by this 
administration.
    Crime is--our shootings are up. Illegals are coming across 
the border. One of the witnesses mentioned protecting our 
borders. We have got cartels that are being--making half a 
billion dollars a month.
    We have got the administration that won't even go down 
there. Our businesses had been shut down for a year and a half. 
Workers--we can't get workers. When you go to the McDonald's 
that I did and got put on a limit to buy because $13--because 
they had two people in the store. They couldn't get people to 
come back. Lumber prices are up 400 percent.
    And we are having a hearing on paying people, Federal 
workers, four months to work. This is an insult to the 
taxpayer. It really is.
    Who is going to pay for this? We don't even have a CBO 
score. We didn't even have the courage to have a CBO score.
    Thirty trillion in debt. Where is the caring for our small 
businesses that are the lifeblood? I don't need to tell anybody 
the Federal Government needs to be cut.
    The Federal--people want to get the Federal Government out 
of our lives, not in more of our lives. And what this 
administration is doing, particularly with the 2 million 
illegals coming into the country, is expanding the Federal 
Government. Why don't you just let them, you know--what is four 
months? Go and put six months off.
    I can tell you one thing. Small businesses don't get six 
months off. I can tell you one thing, that the small businesses 
that support the Federal Government, this is a backbreaker 
along with the taxes that are--that this administration is 
proposing. It is not your money. It is not--the politicians got 
it wrong. It is not y'all's money. It is the people's money.
    And I am sick and tired of this charade that we are having. 
Miss Maloney, I like you as a person. We have asked you time 
and time again to have hearings on inflation. What are we going 
to do to solve problems?
    Let us have a hearing on the--let us pay the police maybe 
for a change instead of the criminals. And here we are, wasting 
time, not even letting us come to the--not let us come to the 
hearing room when we had a guy in a wheelchair that showed up.
    This is a--this is a, really an insult to everybody, 
particularly the taxpayers. The taxpayers deserve better than 
this. And where are the priorities? With this country and the 
shape we are in, where are the priorities?
    And we are having a hearing on paying people more money to 
stay out of work. The states form the Federal Government, not 
vice versa. They work for us, not vice versa.
    So, you know, I really don't have any questions for the 
rehearsed responses from our witnesses. I guess thank you for 
coming. But, you know, it is a--this is a complete waste of 
time.
    But thank you anyway, and I guess we will--we will carry on 
with the hearing.
    I yield the balance.
    Chairwoman Maloney. The gentlewoman from the District of 
Columbia, Ms. Norton, is recognized.
    Mrs. Norton?
    Ms. Norton. Thank you very much, Madam Chair.
    This is an important hearing for a number of reasons. I 
particularly appreciate that you are having this early hearing 
now because this bill has been in effect for nine months. So, 
this is the time to look to see if it has made any difference.
    And it makes a difference that the Federal Government was 
first. We ought to lead the way for the private sector. In 
fact, it looks like they are leading the way, in many ways. But 
for the Federal Government to lead the way to show that it 
works or doesn't work is exactly what we needed, and this 
hearing enables us to see, well, does it work or not?
    That is why my first question is for Mr. Kelley. Now, we 
are nine months in, Mr. Kelley, to this bill, just the time to 
kind of look back almost a year since it was passed to see how 
it has affected Federal employees.
    I know it is early, but it would help to know--you have 
already said that it affected employee morale. But can you tell 
us, has it affected, for example, retention?
    Do we know this early whether it affects retention at a 
time we know that people are looking for workers and we 
wouldn't want to lose experienced Federal workers? Do we have 
any information on that at this time?
    Mr. Kelley. Thank you, Representative Norton. I can't say 
that we have any concrete documentation as far as retention. 
But what I will tell you is that we have had so many employees 
to utilize these opportunities, you know, until it is 
insurmountable.
    We can't tell you how much people have appreciated having 
this, and I think that it will have a positive impact on 
retention because employees are grateful for the bill that was 
passed to give them the opportunity to use this leave, you 
know, which is vastly different and equally important to the 
one that has been proposed now. OK, so I hope that answered 
your question, ma'am.
    Ms. Norton. Well, I can understand it is early to know. I 
hope that your union will keep--will find a way to see what the 
effect is. It is also the Federal Government should do that.
    And I know that, importantly, this bill affects adoption 
and foster--fostering a child as well, something that is very 
important to parenting at this time.
    Ms. Shabo, why is paid parental leave not enough to support 
workers and their families?
    Ms. Shabo. Thank you so much for the question, 
Representative Norton.
    So, parental leave is used--when we look at the unpaid 
leave under the FMLA, parental leave is about one quarter of 
the time people that take FMLA leave. About a fifth are for 
caring for an older loved one or a person with disability, a 
family member, and about half is for a worker's own serious 
health issue.
    So, most FMLA leaves are to care for yourself or to care 
for a loved one. This will only be exacerbated as the 
population shifts. We have an older population now. We have 
fewer people who are available--fewer family members available 
to care for older loved ones because of the mismatch in 
population sizes.
    So, care for yourself, care for a loved one. Very, very 
critical and will become more so over time.
    Ms. Norton. Thank you very much. That is important to know.
    Madam Chair, this has been an important hearing and you 
have conducted it, I think, appropriately at a time when we can 
begin to measure it--measure its effect. It is the first step, 
and I thank you very much for this hearing allowing us to 
monitor where we are now.
    I yield back.
    Chairwoman Maloney. Thank you. The gentlelady yields back.
    The gentleman from Texas, Mr. Cloud, you are now 
recognized.
    Mr. Cloud. Thank you, Chairwoman. Thank you for holding 
this hearing and giving us an opportunity to speak into these 
issues.
    I would like to echo the ranking member's sentiments on the 
importance of having or at least these hearings being available 
in person. If nothing else, the tech challenges we have 
experienced today, I think, echo just how important that is.
    I would like to talk, really, about what is going on in 
this committee, first of all, and that is we are supposed to be 
the Oversight Committee. That means our essential job is to 
ensure that the taxpayers' dollars are being used effectively. 
We are to wait, you know, make sure we weed out waste, fraud, 
and abuse.
    Currently, we have a border crisis going on with hundreds 
of millions of dollars going out, often in no-bid contracts. 
That is worth looking into. We have economic and an inflation 
crisis that is worth looking into.
    We have unemployment benefits fraud. It has been 
estimated--some reports say that nearly half of the 
unemployment benefits doled out by the government have been 
stolen by criminals.
    It is estimated that amount of fraud could be as high as 
$400 billion, which would be the largest--my understanding is, 
the largest case of fraud in our Nation's history.
    We have the China COVID origins that we should be looking 
into. We have cyber attacks. These are real existential threats 
to our Nation and, certainly, the preeminence we have enjoyed 
on the world stage.
    And so we need to be able to address these things. I would 
encourage the committee to be able to take these up. This is 
extremely important for us to fulfill our essential duty.
    I appreciated the chairwoman's passion about the private 
sector and Federal civilian work force. If only the data backed 
it up that would be something.
    But a Federal--data from the U.S. Bureau of Economic 
Analysis in 2018 said the Federal civilian work force had an 
average wage of over $94,000, where the average for the private 
sector was about $63,000.
    And so, the notion that the Federal work force right now is 
lagging behind the private work force that is funding the 
Federal work force just doesn't stand up to the available data.
    And I would just say that right now is really the wrong 
time, as we are working to recover from the economy. Right now, 
our offices deal daily with casework and one of the big issues 
that we are dealing with right now is FSA offices. Farmers are 
having trouble getting their claims processed--their 
applications processed.
    Veterans--we are dealing with the VA benefits processing 
that is woefully behind. The passport expedited process is now 
weeks long. The IRS is hopelessly backlogged.
    And so all this at a time where we have some very good 
Federal workers who are continuing to work and do their due 
diligence, but a number of them, in the words of our 
constituents, are tele-not-working, and it has been very 
difficult to keep up with the pace of supporting and serving 
the people who have elected us to serve them.
    But I want to touch on what is really kind of the heart of 
this issue, is that politicians sometimes get away with this 
idea that we can measure our personal compassion by how much of 
other people's money we give away, and that is really a flawed 
sentiment.
    Because, truly, everyone on this issue wants families to 
prosper. We want families to be taken care of. We want moms to 
be taken care of. We want adoptive parents to be taken care of, 
all these kinds of things.
    The question is, is how do we create a sustainable model 
that meets the needs, but doesn't steal opportunity from the 
next generation, and so we have a couple different models.
    The Democratic model has been to put a heavy burden on the 
American taxpayer, often with deficit spending, as we are $30 
trillion in debt, stealing from the next generations' 
opportunities to have these same sort of benefits, which is, I 
think, questionably moral.
    So, we need to meet the needs and obligations of this 
generation with this generation's resources. And so, one model 
that does work and what we were seeing working, is the organic 
approach and that is for us to have a thriving economy where 
just a year and a half ago we saw wages increasing and because 
of that we had a competitive work force.
    And employers were--had the economic wherewithal because we 
had a booming economy to create a competitive work force to 
begin to offer these sort of services in a sustainable model. 
That is a sustainable model that provides increased benefits 
over time without burdening the next generation.
    So, the important thing is that we realize that the heart 
of what we are trying to accomplish is great, but there is a 
way to go about it.
    Too often, we see the government coming in and creating 
problems before stepping in to try to solve them. We see that 
with the latest crime spree. We see that with the economic 
issues that are happening right now.
    So, let us have a better approach to these issues and let 
the American people do the great work that they are so awesome 
at doing.
    Thank you, and I yield back.
    Chairwoman Maloney. Thank you. The gentleman yields back.
    The gentleman from Virginia, Mr. Connolly, is now 
recognized.
    Mr. Connolly?
    Mr. Connolly. Thank you, Madam Chairwoman, and thank you 
for holding this hearing. The Federal work force is aging. 
Think about this. Twenty percent of the private sector work 
force is under the age of 30. Only seven percent of the Federal 
work force is under 30.
    As of April of this year, 300,000 Federal employees are 
eligible to retire. That is 13.5 percent of the entire Federal 
work force. And within five years, that number will go from 
13.5 percent to 30 percent, almost 600,000 Federal employees.
    Ms. Shabo, am I pronouncing that right? Shabo?
    Ms. Shabo. Yes. Yes, you are.
    Mr. Connolly. You testified that comprehensive paid family 
and medical leave for Federal employees will help attract and 
retain the work force of the future, both diverse and more 
inclusive and younger.
    Do you want to elaborate a little bit on that? Because we 
talk about it like it is a nice thing to do and I don't know 
and--but actually, from a practical point of view, how are we 
going to attract younger workers who will come to expect these 
kinds of provisions in the private sector, as the chairwoman 
pointed out earlier in this hearing, when we are not doing it 
in the public sector?
    Ms. Shabo. Yes, thank you for the question, and I think the 
answer has two parts.
    One, you know, with all respect to the chairwoman, I do 
want to just reiterate that the private sector is not doing 
great for most workers. It is doing OK for high-wage workers 
and some of the same workers that would be equivalent to the 
Federal work force in terms of more educated, higher skilled, 
higher paid.
    It is not doing great for middle income and lower wage 
workers. Again, just five percent of low-wage workers have 
access to paid family leave and that has only increased by two 
percentage points in the last 10 years.
    So, those private sector workers are not doing great. 
However, old workers, many workers, 53 million workers are 
caregivers to older adults or to children with special needs. 
Eleven million workers are caring for both a child and an adult 
who has a disability or an illness or an injury.
    More than half of those are Millennials. Another 25 percent 
or so are Gen X. Six percent are Gen Z. So, as we think about 
building the kinds of workplaces that meet the needs of younger 
workers, who, by the way, also expect these care 
responsibilities to continue for at least five years, maybe 
longer, we have to put in place workplace policies both in the 
public sector for sure, as the Federal Government as an 
employer, but also in the private sector for workers overall.
    This is why we need both, you know, paid leave benefits in 
the Federal work force that helps you attract workers, but it 
is also why we need a paid leave baseline for everybody. This 
is an economic competitiveness issue for the country as well as 
a diversity and inclusion issue.
    Mr. Connolly. Thank you.
    Mr. Kelley, from your vantage point, what about that? I 
mean, how are we going to recruit and retain the work force of 
the future, from your point of view, if we are not addressing 
issues such as the one that is the subject of this hearing 
today?
    Mr. Kelley. You know, I really appreciate that question 
because we have to address these issues, right, because unless 
we forget that--you know, COVID-19 taught us a lot.
    It taught us that, you know, now is the time for us to 
address family issues because what we saw was, we saw so many 
families struggling to take care of their families during the 
COVID-19 issues. And it is more and more prevalent, and we are 
going to see more and more of it.
    I am going to give you just an example, not necessarily 
dealing with COVID, but I just know of a member of our 
organization, right. A single mother, you know, in the state of 
Alabama, you know, had a son that was kind of hanging out with 
some of the wrong people, right.
    Got himself in some trouble doing some things that he 
shouldn't have been done, and the people--boys that he thought 
was his friends actually got him high on marijuana and hung 
him.
    OK. He ended up being paralyzed, and his mother had to be 
home to take care of him. His mother almost lost her job as a 
result of it because she used all of her leave, you know, and 
therefore, they were proposing to dismiss her because of her 
abuse of leave.
    She wasn't abusing leave. She was trying to take care of 
her son. He was the--she was the only member--family member 
that he had to take care of him. And so--but because we were 
able to save her job is the only reason why she didn't have to 
go in bankruptcy, she didn't lose her home and all that type of 
thing. And there are numbers of stories like that that tell us 
that this is the right time to have this discussion.
    Mr. Connolly. Thank you. I yield back.
    Chairwoman Maloney. The gentleman yields back. The 
gentleman from Wisconsin, Mr. Grothman is recognized for five 
minutes.
    Mr. Grothman?
    Mr. Grothman. There. We will start off with Ms. Manning.
    Last week, we passed a bill, which I voted for, but I had 
some misgivings because we were adding another, you know, paid 
day off for Federal employees that I don't think is going to be 
reciprocated in the private sector by the vast majority of 
employers.
    By my account, when one adds together the 12 weeks of paid 
leave that this benefit would provide, 12 paid holidays, and 20 
days of paid vacation, 13 days of paid sick leave, we get up to 
about four months of paid leave for Federal employees.
    Could you compare that to kind of what is going on in the 
private sector here, Ms. Manning?
    Ms. Manning. Sure. And a lot depends on how benefits are 
qualified or measured. But the Bureau of Labor Statistics does 
keep track of how many private sector full time and part time 
workers have access to different types of paid time off.
    And so while it is true that nearly 90 percent of full time 
workers in the private sector have access to paid vacation time 
or paid leave of some type, the reality is that when you start 
to talk specifically about benefits that are quantified or 
qualified as paid family leave, it is a much lower number.
    So, about one in five private sector workers who are full 
time and only five percent of part time workers have access to 
paid family leave. And then if you want to get industry 
specific, which I think is helpful when you start to think 
about the competitiveness of the Federal Government as an 
employer, 37 percent of workers in the finance and insurance 
sector have access to paid family leave, 33 percent in the 
information industry sector, 27 percent in professional, 
scientific, and technical services.
    And so the point of this is to say not even half of workers 
in some of the highest-paying fields have access to this type 
of family and medical leave.
    So, I don't know that it is justifiable for the Federal 
Government to say we need 12 weeks of paid leave for any FMLA-
qualified leave reason in order to be competitive. That is 
simply not where the private sector is.
    Of course, if you look at companies--specific companies 
like Netflix or the Bill and Melinda Gates Foundation that are 
really at the tip of the spear leading with the most generous 
types of paid family medical leave, you could say that the 
Federal Government isn't keeping up with those employers.
    But when you look at the average or you look at the 
portions of different industries, it is just not the industry 
standard to offer 12 weeks of paid time off.
    Mr. Grothman. Will this have any unintended consequences 
for the guys who pay the bills, the private sector?
    Ms. Manning. Oh, absolutely, and I think it is--you know, 
maybe one misperception I would like to dispel, if I may, is 
that the current leading proposal to establish a comprehensive 
national paid leave entitlement would be paid for with a new 
payroll tax, and you can establish a payroll tax on employers, 
but the CBO recognizes, as do most economists, that a new tax 
on employers is simply passed along to employees in the form of 
lower wages.
    And so, we are talking about not just increased taxation 
costs but lower wages as a result, fewer economic 
opportunities, fewer new jobs. That is, simply, the reality. 
When you raise the cost of employment, you get less employment.
    And so, I think it is a misperception to say that only 
businesses or only employers will bear the costs of 
comprehensive paid leave policies, at least the most popular 
leading proposals that Democrats have advanced like the Family 
Act.
    There are other proposals that I would be happy to talk 
about that come with less downside, fewer tradeoffs, better 
individual choice for workers and lower costs for taxpayers.
    But if we are talking about establishing a new national 
paid leave entitlement, the cost will be borne by workers and 
disproportionately by low-income workers because that is how 
regressive payroll taxes work.
    Mr. Grothman. OK. Just a general question for any of you. I 
know we have dealt with the Post Office in this hearing 
otherwise, always in financial straits. Does anybody have any 
estimates on what the cost will be to the Postal Service?
    [No response.]
    Mr. Grothman. Nobody has thought of that?
    OK. Next question. Has anybody thought about the effect it 
will have on the ability of the Post Office as people take off 
to deliver mail effectively on a timely basis? And we hear we 
have such a shortage of people doing work of any--of any sort 
in this country right now.
    Anybody thought that through? Anybody on the panel?
    [No response.]
    Mr. Grothman. OK. Something else I think we should think 
about before we move ahead with this bill.
    Do you feel that the Federal Government is the best place 
to test out this big expansion, in your opinion, Ms. Manning?
    Ms. Manning. So, as I indicated in my testimony, I think 
that, you know, just like any other employer, the Federal 
Government has to set their policies related to H.R. and 
compensation and so forth.
    But I do not think that the Federal Government is a model 
for other employers in the Nation. The private sector is 
different in important ways.
    As taxpayers, we have a stake in how Federal Government 
resources are used. That is a stake that I don't have in some 
of the ways that other companies choose to operate or choose to 
compensate their employees.
    So, I really feel that the Federal Government is a unique 
employer and shouldn't be used as sort of the model for other 
employers.
    Mr. Grothman. OK.
    Chairwoman Maloney. The gentleman's time has expired.
    The gentleman's time has expired.
    Mr. Grothman. OK. Well, thank you for the five-minutes.
    Chairwoman Maloney. The gentleman from--thank you. Thank 
you.
    The gentleman from Maryland, Mr. Raskin, is recognized for 
five minutes.
    Mr. Raskin. Madam Chair, thank you very much for calling 
this really important hearing. Paid family medical leave is a 
fixture in advanced countries around the world, and I think a 
lot of them look at America with some shock and scandal that 
the wealthiest country on earth does not provide paid family 
medical leave, both for public sector and private sector 
employees.
    And, obviously, there is a campaign going on against paid 
family medical leave for workers in either the public and 
private sector.
    And I think another piece of bitter fruit of that campaign 
is trying to pit public and private workers against each other 
as if, you know, public school teachers and letter carriers 
aren't married to people who are small business people and 
engineers. The public sector and the private sector are 
intertwined.
    And in America, the Federal Government is actually the 
largest employer with 2.6 million employees. Tens of thousands 
of them live in my district.
    These are hardworking patriotic people who are running--
working in every department from the Park Service, Interior 
Department, to the Department of Defense to the Department of 
Justice to the people who make it possible for the country to 
operate because we need government in order to make society 
work.
    And unless there any anarchists out there or Antifa members 
on the panel, I think everybody has got to agree that we need 
government. So, I think some of the attacks on government 
workers are really improper and sound very antiquated and 
obsolete to me.
    But in any event, 85 percent of Federal workers don't live 
in the D.C. area. They live across the country, and they are 
doing the work, whether it is for the Department of Agriculture 
or the Department of Commerce, or Homeland Security, all over 
America, and we have them in all of our states and all of our 
districts.
    But I want to ask Ms. Shabo--I hope I am pronouncing your 
last name right. I want to ask you about the public health 
dimension of this, because we went through this discussion in 
Maryland when I was a member of the General Assembly, and one 
of the things that became very clear to us, Democrats and 
Republicans, Independents alike, is that we don't want people 
going to work when they are sick.
    And you would think that COVID-19 would have taught us 
that. You know, there is a new report that has just came out 
about the teams of doctors that President Trump had to take 
care of him to save him from COVID-19 when he had rushed 
heedlessly into going out without a mask and telling everybody 
it would magically disappear and just use hydroxychloroquine 
and all that nonsense.
    But he had teams of government lawyers working on him to 
try to rescue him from his own folly and recklessness. Most 
Americans don't have that.
    So, if somebody gets sick, don't we want them to stay home? 
I mean, do we really want to create a financial incentive for 
them to go to work and spread whatever it is they have?
    Ms. Shabo. Absolutely not. Thank you for bringing this up, 
Congressman Raskin, and Maryland has been a leader on paid sick 
days.
    You know, it's--Congress was smart at the beginning of the 
pandemic to implement the Families Coronavirus Response Act, 
which though limited in terms of its scope and who it applied 
to, impacted--impacted the contagion of COVID-19 and is 
estimated to have prevented 15,000 COVID cases per day 
nationwide.
    So, that alone speaks to the importance of time to stay 
home and to recover, and to keep yourself and your family and 
your workplace safe.
    But more than that, as we think about the need for paid 
family leave and paid medical leave, there are now untold 
numbers of long-haul COVID survivors. About 25 percent of them 
are expected to have symptoms, chronic, intermittent, other 
symptoms that continue.
    We need both paid sick time and we need paid medical leave 
for longer-term serious health conditions. Your research shows 
that when people have access to paid leave they come back to 
work more quickly.
    They are more productive. This is good for them, obviously, 
for their family, and for their employer in terms of----
    Mr. Raskin. Thank you. Thank you so much, Ms. Shabo.
    Mr. Sorkin, let me turn to you. I have two quick questions 
for you. One is, are you aware of other businesses in your 
industry that also paid people--paid family and medical leave?
    And I think there is some suggestion that American workers 
in the private sector or public sector will cheat. If they have 
got paid family medical leave, they will invent sicknesses. 
They will pretend somebody has got cancer. They will pretend 
somebody has got leukemia. They will fake it, like we are a 
nation of con men or con women.
    But has that been your experience? Tell us, honestly, are 
people, like, rigging the system and ripping you off?
    Mr. Sorkin. Well, to answer that the first question--thank 
you, Congressman. But to answer the first question, other small 
businesses like mine, it is very unusual to find small 
businesses that are willing to absorb the expense.
    In my experience, we have not seen people abusing the 
system. I think it accounts even--you know, it is less than a 
percent or two percent of our payroll and consistently less. 
And, particularly, in a small business, we know our employees 
and that kind of abuse just doesn't--you know, is much less 
likely to happen.
    Thank you.
    Mr. Raskin. Well, thank you.
    Chairwoman Maloney. The gentleman's time has expired.
    I now recognize the gentleman from Louisiana. Mr. Higgins 
is now recognized.
    Mr. Higgins?
    Mr. Higgins. Thank you, Madam Chair. I am very sorry. Now, 
I hope America is paying attention. I am very sorry that we 
have hurt our colleagues' feelings by actually showing up in 
person for Oversight Committee service.
    America faces an unprecedented labor shortage, massive 
challenges that cause our economic recovery to struggle because 
of the majority's decision to spend trillions of dollars in 
deficit spending, paying people to stay home.
    Every business owner from sea to shining sea that I have 
had a conversation with either in person or on the telephone, 
in digital town halls, through social media, through direct 
contact and interaction, meeting with large business 
organizations that represent the needs and interests of our 
Nation's economic recovery, on behalf of employers, the story 
is the same.
    We have an incredible challenge facing America today 
because our work force is staying home. Why are they staying 
home? Because the Democrat majority has spent trillions of 
American dollars that we don't have to pay them to stay home. 
And the Democrats' answer to that is to hold our virtual 
committee hearings suggesting that we should pay more people to 
stay home.
    It is insulting. It is abhorrent. Our nation is struggling 
to recover from the CCP virus. Working Americans are fighting 
to survive. Employers cannot find employees. We face $31 
trillion in debt.
    It is wrong on many levels for Congress to suggest that 
Federal employees need more time off.
    I had--I had thought to submit for the--for the record the 
list of benefits for Federal employees right now and paid leave 
right now that Federal employees enjoy. Most American employees 
do not--do not have anything close to that level of benefit and 
paid leave.
    But I decided not to because I challenge America. America, 
I am talking to you now. Please do some research and look at 
what your Federal counterparts in your industry or your 
background, your profession, your area of expertise, compare 
that to what you have got and what your family faces. I ask 
America to do its own research.
    Madam Chair, I appreciate the panelists for being here 
today. I think this was a--this is not the kind of hearing 
Oversight should be conducting and what we do investigate as an 
Oversight Committee should be done in person.
    That is my opinion, and I yield.
    Chairwoman Maloney. The gentleman yields back.
    The gentlewoman from Michigan, Ms. Tlaib, is recognized.
    Ms. Tlaib?
    Ms. Tlaib. Thank you, Chairwoman. Thank you all so much for 
this incredibly important hearing, and I think for my district, 
which is the third poorest congressional district in the 
country, this hearing, you know, for my residents is important, 
as we really do our due diligence to oversee--have oversight of 
what our policies are and what the impact is.
    And you all know, if anything, COVID has just exposed--this 
pandemic has just exposed how these systems are set up in a way 
that doesn't really allow our residents and people to thrive, 
which does impact our small businesses.
    And so I just--as a person that is a mother of two, and I 
still remember, Chairwoman, working at a nonprofit organization 
because that is what I--I wanted to change the world.
    I went to law school to do that and that is what I wanted 
to do, even though I was in a lot of, you know, high debt. 
Still am, and for me, I brought my child to work. He was in the 
playpen, like, behind my desk, and I nursed him there at my 
desk. I did my conference calls.
    But I was exhausted. Even thinking about it, I remember 
breaking down several times just in tears because I was tired. 
I didn't get enough sleep, and it is just--it is exhausting. We 
should not have to, you know, live this way in one of the most 
wealthiest countries in the world.
    And so for me, I know many folks, and the panelists may or 
may not know this, and I want to ask you all, you know, the 
majority of my colleagues in Congress--and no offense to those 
that are doing well--the majority of them are millionaires.
    They are completely disconnected to what this hearing is 
about. They really truly are. They are living--you know, some 
are going to stay rooted and connected to the pain and these 
broken systems that are on the ground.
    But, again, because it is not touching their lives, they 
are not going to lead with that compassion that I think is 
needed in Congress.
    And so, you know, my question, you know, very much, you 
know, and I don't know if Ms. Manning or Ms. Shabo or, you 
know--Eric, thank you for testifying today--you know, and 
again, you know, I think Ms. Bigelow, you can also answer this, 
for my district I want to hear from you all.
    The trauma, really, that we are creating--and talk a little 
bit about this--to our children in that--because I know and I 
see it, where we are allowing our children to not get the care 
that they need or for us to get the emotional and health care 
that we need to be able to provide for them and be fully there 
and present in raising our children.
    And so can you all talk a little bit about that? And talk 
about even, you know, again, COVID. If anything, the pandemic 
just exposed exactly what my residents have been telling me for 
years, y'all. Like, it is not working, Rashida. It is not 
sustainable. I can't do it. I can't get the hours. I can't--it 
is just not sustainable. I am sick going to work and all of 
those things.
    So, I can start with you, Ms. Shabo, and then maybe go to 
Eric, and then, of course, Ms. Manning and Ms. Bigelow.
    Ms. Shabo. Yes, thank you for the question. So, you know, 
one of the wonderful things we have learned about the impacts 
of paid leave is about the impact on infant and maternal 
health.
    Lower rates of maternal depression, higher rates of 
breastfeeding, higher rates of children's getting immunized on 
time, lower rates of head trauma and better educational 
outcomes.
    And, you know, to your point about Congress being 
disconnected, 85 percent of Americans--84 percent of Americans 
overwhelmingly want Congress to enact a national paid family 
and medical leave program.
    These are taxpayers. They are willing to pay for this 
program. They are willing to have corporations pay for this 
program. They are willing to have the wealthy pay for this 
program.
    Whatever the financing source, including themselves, they 
want this done. So, thank you so much for your question.
    Mr. Sorkin. Thank you, Congresswoman. I appreciate the 
opportunity to chime in as well.
    You know, looking back at COVID, it was--it was really 
clear to us as a business that the first--the first line of 
defense for employee safety, for all our safety, was to make 
sure folks who were sick or potentially exposed wouldn't come 
into work.
    But the plain truth of it is, just asking employees to stay 
home without offering them pay is just preposterous. You can't 
expect our lower-wage employees to make that choice.
    So, you know, the Families First Coronavirus Response Act 
is really, really essential for us and a program like that, I 
think, is just plain as day that we need that if we want to 
have safe communities and safe workplaces.
    Ms. Manning. I can just chime in briefly that in my last 
pregnancy during the pandemic and having an infant child during 
a pandemic, it was very hard, and part of the reason it was so 
challenging is because of the social isolation and the lack of 
community supports that are usually there.
    And I am hopeful that we can get back to a place as a 
country where I will have, you know, more freedom and more 
comfort and interacting with grandparents and the rest of the 
church community and so forth. I think that stuff is so 
important.
    And I think that paid leave policy is also very important 
and that is why I just want to be sure that the solutions that 
we are considering and pursuing are the ones that come with the 
least downside.
    You know, just like it's true that public and private 
sector workers are married to each other, we are in this 
together, we are part of the American community, so are 
taxpayers and families.
    Families are taxpayers. It is not as if those are two 
separate groups of people, and so we have to be considerate of 
our needs as working moms and working dads and families, but 
also the bottom line when it comes to, you know, our incomes 
and how much resources we have and how much taxes we pay.
    Ms. Tlaib. Of course. Yes, there is always going to be 
challenges.
    And Ms. Bigelow, if I may, Chairwoman, she can do the final 
answer, please.
    Chairwoman Maloney. Actually, your time has expired so Ms. 
Bigelow will have to submit it to the record for us.
    Ms. Tlaib. Oh, OK.
    Chairwoman Maloney. The gentleman from--the gentleman from 
Pennsylvania, Mr. Keller, is recognized for five minutes.
    Mr. Keller?
    Mr. Keller. Thank you, Madam Chair. The logic of not having 
this hearing take place in person, the fact that we are having 
it 100 percent virtually is baffling.
    The COVID-19 requirements have been lifted across the 
Nation, including in Washington, DC. All anyone has to do that 
is watching this proceeding is turn on C-SPAN later on when we 
are all on the House floor, including the Speaker, Democratic 
leadership, Republican leadership, all of us, gathered together 
exactly like we should be doing in this committee. Not 
conducting 100 percent in person committee meetings is a 
barrier to effectively serving the people we work for, the 
people we represent.
    The people that I represent, the people that all of us 
represent across America go to work every day and get the job 
done. Our job here in Congress to represent them should be no 
different as we tackle the challenges that face our Nation.
    So, getting into why we are here, Ms. Manning, what are 
some of the examples of the reasons why Federal employees use 
FMLA?
    Ms. Manning. I imagine that Federal employees use FMLA for 
the same reason that private sector workers might use FMLA--for 
the birth or adoption of a child, for a medical emergency, for 
caregiving, and so forth.
    Mr. Keller. Yes. A personal illness or an illness of 
somebody in the family or birth of a child, whether those 
illnesses would be emotional or whether they would be physical?
    Ms. Manning. I believe they have to get approval from a 
healthcare professional to merit their FMLA absence.
    Mr. Keller. Yes. During 2020, Congress directed dollars 
toward programs to assist Federal employees who had to stay 
home due to COVID-19.
    Ms. Manning, do we have all the performance data to 
determine how beneficial this policy was?
    Ms. Manning. I don't know if someone else has that data. I 
do not have it.
    Mr. Keller. The proposal we are discussing today would 
allow the Federal employees to take 12 weeks of paid leave for 
any reason under FMLA. Is there any estimate, Ms. Manning, that 
you would have seen that would have cost the taxpayers?
    Ms. Manning. No.
    Mr. Keller. OK. And taking a look at what we are doing, all 
Americans, including those in Federal Government, those who 
work for state and municipal authorities and those working for 
private sector businesses of all sizes, deserve to be able to 
take the time they need to either attend to their own health or 
assist a loved one.
    These benefits should be flexible and workable for both 
employers and employees. We need to be helping employers grow 
their business so they can provide the benefits to their 
employees.
    The majority's proposal under discussion today is Federal 
employees up to four months off when you include all the time 
that they would have for holidays and so on and any additional 
time. That is one-third of the year.
    And the thing I want to take a look at as a former small 
business operator, these standards are flat out--they are not 
workable. Having hardworking taxpayers foot the bill for this, 
you know, is just not responsible good policy.
    And I want to give you an example of when I was--when my 
son was in the hospital on life support. The employer I worked 
for, I had a check every week for that time we were at his 
bedside for that--for that month, because they could afford to 
do it, because that is what our employers do.
    As I mentioned in a hearing with Secretary Walsh, I asked 
him if he believed that the businesses in America, the small 
businesses that are owned by our families, friends, neighbors, 
our constituents, cared about the health and welfare of their 
employees, and after the second time, I got him to admit he 
did.
    And I believe that of the people that I represent that own 
businesses and go to work every day in PA-12, and I don't think 
they need the government telling them what the right thing to 
do is.
    If the business can afford to do it and somebody in their 
team needs help, they will do it. If there is a member of the 
team in my office that had an issue, I would certainly afford 
them the time to deal with that issue, and having a law telling 
us what is behavior, what we should be doing as human beings, 
it is just big government not having the trust in the American 
people.
    Chairwoman Maloney. The gentleman's time has expired.
    Mr. Keller. Not having the trust in the American people to 
do the right things, and that is where I am different and a lot 
of my colleagues on the Republican side of the aisle are 
different. We have that faith in the American people. We have 
that faith in individuals----
    Chairwoman Maloney. The gentleman's time has expired.
    Mr. Keller [continuing]. That we don't need our government 
to try and legislate morality.
    Thank you, and I yield back.
    Chairwoman Maloney. The gentlewoman from the great state of 
New York, Ms. Ocasio-Cortez, is now recognized.
    Ms. Ocasio-Cortez. Chairwoman Maloney, and, you know, we 
just heard some examples about what may or may not happen with 
paid leave.
    I would like to provide, just very quickly before I start 
my example, when we first started and opened our office, I 
decided to offer--and not even offering, we decided that as a 
matter of policy that we are going to provide three months of 
parental leave, both for all parents--birthing, nonbirthing, 
adoptive, et cetera, and that includes fathers as well. And 
what we have found has been that it has been a profoundly 
successful policy.
    But I think also, to just counter a point that was 
immediately made, is that having time with our families should 
not be a matter of charity or profitability.
    The fact of the matter is, is that deciding on having paid 
leave and the decision and the ability to have paid leave is 
not about how good or charitable your employer is.
    It is not about whether they are a good person and it 
certainly shouldn't be about whether it is profitable for a 
business. It should be about the importance of value of family 
and human beings, and these are rights for us.
    And parents, mothers, fathers, the human development of 
children, should not be decided by how profitable that leave is 
for a business. It should be a right that is afforded to all 
parents and all people and all human beings.
    And moving on, you know, I think I want to narrow in on 
dads. Let us talk about fathers and the right of fathers to 
have parental leave and all nonbirthing parents as well.
    You know, being a parent, a mom, a dad, et cetera, looks 
different for every family, and we don't have to subscribe to 
this binary of a parent that had physically birthed child needs 
or deserves more leave or time than a nonbirthing parent.
    The fact is, is that we need to have leave for all parents 
because both--even if you have a birthing parent, you cannot do 
that alone. I mean, I want to dig into that a little bit.
    Ms. Bigelow, you and your colleagues at the National 
Partnership for Women and Families recently published your 
findings on the need of fathers for having paid family and 
medical leave.
    You stated some of these facts earlier and I apologize for 
the redundancy, but I think it is really critical for some of 
my colleagues to hear this again.
    So, Ms. Bigelow, you said that just five percent of fathers 
in professional jobs took more than two weeks off after their 
most recent child was born, correct?
    Ms. Bigelow. Yes.
    Ms. Ocasio-Cortez. And we know that low-income dads have it 
even worse because of the lack of paid leave. So, one study of 
disadvantaged families showed that nearly 60 percent of dads 
reported taking zero weeks of paid time away from work after 
the birth or adoption of a child. Does that sound about right 
to you?
    Ms. Bigelow. Yes.
    And we know that the first year after a child's birth or 
adoption is critical to their development or adjustment inside 
a new home.
    So, fathers are more likely to remain involved in parenting 
and to equitably divide household chores with their partners if 
they take time off after their child is born, right.
    Ms. Bigelow. That is right.
    Ms. Ocasio-Cortez. And it is true that new moms and new 
birthing parents have fewer postpartum health complications and 
improved mental health when new dads also take parental leave, 
right, or take paid leave?
    Ms. Bigelow. Yes.
    Ms. Ocasio-Cortez. So, we see that dads having--and 
nonbirthing parents taking equitable paid leave is good for the 
parent. It is good for the birthing parent and the mom, and it 
is good for baby.
    In my home state in New York, women make up about half of 
New York's labor force, you know, and I think one of the things 
that we have seen in my personal experience, we have fully paid 
parental leave and we have had a couple of new dads in my 
office take it.
    And one of the things that I have noticed so much is that 
after--you know, eventually we all go back to work and 
sometimes they come and bring baby--the baby and will be with 
our whole families together in gatherings, and we see that, 
too.
    Moms say, thank you so much for letting my husband stay 
with me because I could not recover physically and handle a new 
baby and try to keep a home together all by myself.
    And so I am wondering, Ms. Bigelow, how do you think this 
contributes to income inequity between, you know, new mothers 
and fathers--and anyone else on the panel feel free to chime in 
as well--or----
    Chairwoman Maloney. The gentlelady's time has expired, but 
the gentlewoman Bigelow may answer the question.
    Ms. Bigelow. So, I will just answer really quickly and say 
that no new mom should feel alone to recover from birth and get 
used to parenting, and I credit our own stability in my family 
to the fact that my husband was able to take 12 weeks paid 
paternity leave to the generous benefit provided by 
Congresswoman Nita Lowey.
    And so we were able to really have a good start for our 
family because of that, and I can't imagine not having that if 
I were a low-wage worker.
    Mr. Kelley. Madam Chairman, can I just chime in there?
    Chairwoman Maloney. Yes, Mr. Kelley, you are recognized 
briefly.
    Mr. Kelley. Thank you so much. You know, paid parental 
leave has been a godsend for those who have to use it so far, 
right. I am a father, and I can recall those precious weeks 
after there was a new addition to the family. The new baby 
needs attention.
    The whole family needs the care and love and attention 
that, you know, only can be provided given that they have no 
stress about being able to pay rent and other expenses. The 
vast majority of Federal employees, especially those young 
enough to be starting a family, do not earn enough to skip even 
one paycheck.
    Take, for instance, I hear a lot of talk about how much 
Federal employees average a year. But when you take TSA workers 
that average about $35,000 a year, you know, with a new family 
and you got to worry about the house, no car, no--and all of 
these bills and the stresses of those things, they will not be 
able to take off work and take care of the family, bond with 
that family, as necessary.
    So, I just wanted to say that, and this FMLA leave is a 
necessary addition to the family parental leave. So, I 
appreciate everyone that is promoting this and that is 
sponsoring this. It is a necessary thing for under-paid Federal 
employees.
    Chairwoman Maloney. Thank you. The gentlelady's time has 
expired. She has yielded back.
    The gentleman from Texas, Mr. Fallon, you are now 
recognized for your statement and questions.
    Mr. Fallon. Madam Chair, thank you, and you can certainly 
say the great state of Texas anytime you like.
    So, you know, interesting to hear some earlier rants and 
lectures about this. But, again, I always like to look at kind 
of some statistics and share with our colleagues and friends.
    The Federal--and I hope I am getting all this right, but we 
have to trust some of the folks that we called for this 
research, that Federal employees--all the Federal employees are 
entitled to a pension once they are vested.
    Private sector, according to the National Compensation 
Survey done by the Bureau of Labor, 12 percent of private 
sector employees get a pension. The paid sick leave in the 
private sector averages seven days a year and the Federal 
employees average 13.
    Vacation--vacation is a little harder to quantify as far as 
average. But it looks like about 14 days with private sector 
and 20 days with the Federal employees.
    Paid holidays, private sector it is eight and Federal 
employees it is now 11.
    So, some of the things to consider. And sick leave, from 
what we were told that 13 days can be carried over to the next 
year and continue indefinitely. So after, say, 10 years, it is 
conceivable that a Federal employee could have banked 130 sick 
days.
    And vacation, they can only carry over 240 hours, which is 
about 30 days and they are getting, once they are established 
and I am talking about an employee that has been around for, 
say, seven years or plus, gets 20 days leave. But that would be 
a usual lose at their bank and bring it over to the 30.
    So, in a given year, if you have an employee, a Federal 
employee, have about 180 days. Now, I don't know, and I suspect 
that they could use sick leave for maternity leave and if they 
cannot I would, certainly, support letting them use that 12 
weeks to cash in. This is about saving.
    I mean, we all are--we can't live day to day. We need to 
save money as best we can for that rainy day. That is what I 
was taught growing up and my parents are retired school 
teachers. My father retired after 25, 30 years service with all 
of making $38,000 a year. But we saved for those rainy days.
    And then you have to look at the cost of this. And it is 
hard to quantify because the--there is no CBO estimate, and 
nobody sought to ask the OPM.
    So, there has been no due diligence on this, and it is--it 
is a dereliction of duty to vote on this or form an opinion 
when we don't even know the cost. That is what--we are the 
caretakers of the taxpayer dollars. The Federal employees work 
for the taxpayers.
    I really, unfortunately, feel that this is a cover for a 
socialistic policy, and if 12 weeks is great, yes--I mean, and 
I owned a business, and I had an employee that had cancer and 
she was a loyal employee, and I told her her job--but I was in 
that position--her job was to get better and for two years I 
paid her. But that was the decision that we made, and it wasn't 
forced or compelled upon us by anyone.
    And that is the difference between the private sector and 
the public sector, and particularly Federal employees.
    And then I have heard for hours now the fact that, you 
know, apparently Americans are helpless and there is no such 
thing as personal responsibility, and there is certain 
decisions that you need to make.
    I started out in the Air Force making $18,500 a year and I 
had certain decisions. I didn't want to get married, and I 
didn't want to have children making $18,500 a year. I was 
responsible enough to know that wasn't going to be a good 
outcome.
    And I have--we have to trust the American people. 
Government is not God and governments have--and it is not a 
parent. It is a bad parent.
    And with that, Madam Chair, from the great state of Texas, 
Pat Fallon yields back. Thank you.
    Chairwoman Maloney. Thank you. Thank you.
    The gentlewoman from Missouri, the great state of Missouri, 
Ms. Bush, is recognized for five minutes.
    Ms. Bush. St. Louis and I thank you, Madam Chair, for 
convening this hearing.
    Just sitting here listening to what some of my colleagues 
are saying is--absolutely just blows my mind. When we can--we 
can speak from a place of, you know, I have it and every--
everything else should be great the same way that it is great 
for me.
    But it is not that great for everybody and maybe we need to 
bring it back to that, that everybody doesn't have the same--if 
we don't have equity in this country, we don't have equality in 
this country. And so maybe opening your eyes to see that there 
is somebody else that is suffering a different way than you.
    And so, you know, I feel like, you know, the thing is this. 
We have to look at more than just our little square box.
    But thank you for your leadership on this, Chairwoman, and 
the leadership of those on this committee.
    The Federal Government now guarantees paid parental leave 
to its employees. We know paid parental leave is a strong 
start, but it is not at all enough leave for Federal workers or 
for workers, more broadly.
    And I know this from personal experience. Twice in my life 
I have been fired or threatened with firing from a job for 
running out of paid leave or something related to the paid 
leave while I was too sick to work. Both incidents could have 
happened to anyone.
    In one case, I was the victim of sexual violence. It was 
violence upon my body that I did not ask for, and because 
mental health isn't paid for, because when you have this mental 
health situation going on how do you keep your home? How do you 
keep--I almost lost my home. I almost lost my car. I almost 
lost everything because I couldn't deal with that sexual 
assault and it wasn't my fault.
    The other one, I was t-boned in my car and I couldn't walk 
for weeks, and I remember, as a matter of fact, when I started 
to get a little bit better, Rep. Ocasio-Cortez came to be with 
me, and she literally carried me down the street. There's 
photos of that.
    It is not that I didn't want to go to work. I physically 
could not be a nurse. You physically--it is not that people 
want free handouts. It is that, how do we take care of 
ourselves?
    And this is the other thing. We also have to remember when 
you lose a staff person that has been with you, it costs a lot 
of money. It costs a lot of money to be able to get someone 
else in and train them and get them to the point of the skill 
and the talent, the knowledge, with that company that the other 
person had.
    So, why not invest in the worker that you have? Why not 
give them the space that they need to heal? It is ridiculous 
the things that I am hearing today.
    Imagine punishing a low-wage worker in response to a 
traumatic life event. You punish them for that trauma. Imagine 
a nurse being fired for being sick. Imagine trying to return to 
work but being unable to and being fired for it. Like me, 
millions of people don't have that, and they don't have to 
imagine it. It is a reality that happens every single day, and 
we see why.
    Unfortunately, Federal workers are not guaranteed paid 
leave for any reason specified in the Family and Medical Leave 
Act of 1993 other than childcare. This leaves workers without 
affordable options when they have to take time off from work to 
address a health issue or take care of a family member.
    Mr. Kelley, great to see you again and thank you for all 
your work. How would your members benefit if they had access to 
paid leave during other situations when they need to care for 
themselves or their families?
    Mr. Kelley. Can I just give you a story?
    Ms. Bush. Yes.
    Mr. Kelley. OK. Let me tell you a story about a young man, 
right. He had worked--he is a TSA worker--worked, you know, has 
a wife, you know, and his wife is diabetic.
    A few months ago, had to have a kidney transplant. He had 
to use a lot of leave to take care of her, about two and a half 
months, right, because she was very ill after the transplant.
    They had a son. They had been working to send him to 
college, right. Then a few weeks later, you know, the doctor 
discovered that the body was rejecting the kidney, OK. So, they 
had to go in and remove it. She became very ill.
    So, that meant that he still wouldn't work again, OK. So, 
that became very stressful for the family, couldn't pay the 
bills, and the son that had worked so hard--to say go to 
college, I want you to go to college, I want you to be a 
productive citizen--the father had to ask him to come out of 
college and get a job in order to help them pay the bills so 
that they wouldn't leave their--lose their home, and all these 
things.
    So, I just agree with you. Everybody don't have it like 
that. There are people and, you know, and pastoring for 31 
years to sit here and hear the inhumanity of what I am hearing 
here today, that is supposed to be representing our country, 
supposed to be representing all of humanity, and there is no 
humanity in this. It bothers me.
    Ms. Bush. It bothers me----
    Mr. Kelley. You are telling me that people are not 
concerned about the well being of the American family. We are 
concerned with those that already got it. Everybody don't have 
it.
    Chairwoman Maloney. The gentleman's time has expired, and 
the chair recognizes herself shortly.
    I just want to commend Ms. Bush for pointing out that 
public policy is not made on the goodness of one person's 
heart. One person can be very thoughtful and wonderful to their 
employees.
    But there can be another situation where she pointed out 
where people are hurt unjustly in many ways and lose their 
jobs, lose their form of employment and way to provide for 
their families.
    Public policy has to be made on what is best for the 
American people, and that is what we are discussing today. We 
are not voting on this bill today. We are having a debate and 
discussion on it.
    I yield back and I now represent--I now recognize the 
gentleman from the great state of Georgia.
    Mr. Clyde, you are now recognized for five minutes.
    Mr. Clyde. Thank you, Madam Chair and Ranking Member, for 
holding today's hearing, and yes, Georgia is a great state. 
Thank you.
    Our country is facing several crises--the Biden border 
crisis, the Biden crime crisis, the Biden economic crisis, the 
Biden energy crisis, as we see gas prices go up and up and up, 
and the employment crisis.
    I am constantly hearing, as I travel across my district, it 
is clear to me that families are hurting from inflation and are 
worried about illicit drugs flooding their communities because 
of the crisis at the southern border.
    I am constantly hearing from small business owners about 
how labor shortages are plaguing their ability to hire talented 
workers.
    Thankfully, Georgia's Governor, Brian Kemp, through his 
direct order, has ended the extra payments from the Federal 
Government so that we can get hard-working Georgians back to 
work.
    I am a small businessman by trade, and I can tell you that 
small and even large businesses operate a whole lot differently 
than does the Federal Government.
    I mean, the fact that the government, or should I say 
Congress, decides how much we will spend before even putting a 
budget together. Is that backward in and of itself?
    Not to mention the fact that we are not required to balance 
our budget every year. No wonder our government is in such poor 
fiscal condition.
    As a business owner, I had to work to bring in revenue, 
which was dependent on consumer demand, on customer service, on 
community engagement, on marketing, among other things.
    You also must balance your budget as a small business owner 
and plan to make adjustments if times are good or if they are 
tough.
    If times are good, and hopefully they stay good, benefits 
typically become more generous than the basic benefits 
employers provide to retain quality employees.
    But when times are tough, sometimes you have to adjust to 
keep people on the payroll because you don't want to let 
anybody go. You want to keep all your good employees.
    To the contrary, if the government wants to increase its 
revenue stream, all it does--all it has to do is raise taxes, 
easy as that. Flip a switch and more money flows in.
    But who pays the price for flipping that switch? The 
American people, and if we don't have the money now, we borrow 
it. And so who pays the price? Our children.
    So, for Ms. Manning, I have a question for you. I just 
outlined some ways in which the government operates differently 
from private employers and I briefly touched on differences in 
benefits in good times and bad times.
    Do the benefits for Federal employees get adjusted down 
when times are tough?
    Ms. Manning. To my knowledge, they do not.
    Mr. Clyde. They do not. You are absolutely right.
    So, it sounds like the Federal Government's benefits are 
completely stable. And yet, with all these advantages we are 
sitting here today considering the chairwoman's proposal to 
further expand the already generous benefits for Federal 
employees.
    What do you think that says to the average American, saying 
that their Federal employee counterparts are getting more 
benefits than private citizens who are struggling to recover 
from the pandemic? What do you think that says to the American 
people, ma'am?
    Ms. Manning. You know, I think we struggle as a country to 
maintain wide respect for any type of large institution, 
whether it is the media or the government or academic 
institutions.
    I would love to see greater public trust in those 
institutions. But I don't think it fosters good public trust 
when we feel that there is an elite political class who can 
vote new benefits for themselves or for the Federal work force, 
and that often, I think, fosters a sense of detachment from the 
citizens that you serve.
    Mr. Clyde. I agree with you. Do you think the Federal 
Government needs to make its benefits even more generous than 
they already are right now to compete for labor?
    Ms. Manning. No. As an economic question, I think it is 
pretty clear there is no economic necessity with that.
    Mr. Clyde. OK. Well, thank you. I appreciate that very 
much.
    You know, it is one thing to provide a benefit like this 
during an extraordinary period, like COVID-19. But it is 
another entirely to make this a permanent benefit for all 
times, good and bad.
    Thank you for your response. I appreciate that. You know, I 
am a 28-year military officer and 11 years of that was spent on 
active duty. And the military gives 30 days of paid leave every 
year, but that 30 days includes weekends.
    So, if I take straight 30 days, then I have four weekends. 
I have eight days of weekend days that are included in that 
paid leave.
    While I know signing up for active duty is much different 
than signing up for the civilian work force, you know, both are 
public servants and at the end of the day their salaries are 
paid by the taxpayers.
    So, in my opinion, it is egregious that we are sitting here 
today considering a proposal that would only require Federal 
civil servants to work nine months of the year. It is an 
affront to our servicemen and women who sacrifice everything, 
as well as to taxpayers who will be on the hook to pay for the 
additional benefits.
    And with that, from the great state of Georgia, I yield 
back.
    Chairwoman Maloney. The gentleman yields back.
    And the gentleman from Illinois, the great state of 
Illinois, Mr. Davis, is now recognized.
    Mr. Davis. Well, thank you. Thank you very much, Madam 
Chairman.
    You know, as I was listening to the Biden crisis, I was 
just reminded that President Biden has done more for low-and 
moderate-income children and families than we have seen in this 
country since the Great Society program.
    Mr. Clyde. Well, he's admitting that it's the Biden 
programs----
    Mr. Davis. And so that is one way of dealing with and 
addressing crisis.
    But we are really talking about something else at the 
moment. I am in favor of paid family medical leave. As a matter 
of fact, not only am I in favor of it, I introduced it, and so 
I am definitely in favor of it.
    I was just wondering, though, because I have always been 
taught that a satisfied work force is far more productive than 
a work force that is not satisfied.
    So, when we start talking about costs, if we keep the work 
force satisfied they are going to be more productive, according 
to all of the research and all of the studies that I have ever 
heard anything about.
    Of course, Illinois is a great state. But I represent a 
large number of people in Chicago who are disproportionately 
among those lacking paid leave benefits, often because they are 
single parents or grandparents, caregivers who need caregiving 
flexibility. They are often lower paid individuals in the work 
force and don't get all of the benefits that others might get.
    Ms. Shabo, let me ask you, my congressional district has 
one of the highest percentages of children being cared for by 
their grandparents. The burden of care giving often falls 
heavily on African-American women, with many of these 
grandmothers working, caring for young children and aging 
family members, and also dealing with their own medical issues.
    Could you discuss why a broad definition of family is 
needed to make sure that everyone who needs it can get the 
family caregiving leave and get their needs met?
    Ms. Shabo. Thank you so much for the question. You know, 
like constituents in your district, families across the country 
come in all shapes and sizes.
    They are caring for different members of their family. They 
treat--members of their family require care and different 
people may be available.
    But too often, policies leave extended family members 
behind--grandparents, grandchildren, siblings, adult children, 
and others who folks care for like family.
    Fourteen percent of workers who needed but didn't take an 
FMLA leave in 2018 said that they couldn't because they were 
caring for somebody who wasn't covered by the FMLA.
    One of the great innovations in state-paid family and 
medical leave programs is that every single one of them now 
covers a broader definition of family.
    And this is incredibly important, particularly for families 
of color, for families with people who have disabilities, for 
LGBTQ families, and for women in particular, who bear the brunt 
of caregiving, whether it is paid or unpaid, or whether they 
have to leave their jobs in order to provide care for those who 
they love.
    Mr. Davis. Thank you very much.
    Mr. Kelley, I have heard a lot about the number of days 
that Federal employees have to work. Do you know any rules that 
require individuals to take all of the family medical leave 
that they may have available to them?
    Mr. Kelley. There is no rule, sir. And what I would like--
if I might add just a little bit, I think we should refocus on 
what this discussion is all about, right, because every Federal 
employee would not be able to take four months of leave.
    That is not what this is all about, and to propose that 
would be a lot. It will be a lot to the American people, 
because if you think about, you know, how many Federal 
employees will have a person in their family that will fall 
into the category that they will be able to take, you know, 
these 12 weeks, it is just not the truth.
    It is not true, even to the fact that I heard earlier that 
Federal employees haven't given up anything. But it is not 
true. If you remember back in 2013 and 2014, it was Federal 
employees that gave up retirement benefits. They was cut. You 
know, it was the Federal employee, you know, and all of this 
pay was for the extended unemployment insurance. And remember 
that we are not political appointees. We are Federal employees, 
and to bring these untruths for today really bothers me.
    Mr. Davis. Thank you very much. Thank you, Madam Chairman, 
and I yield back.
    Chairwoman Maloney. Thank you.
    The gentleman from the great state of Vermont, Mr. Welch, 
you are now recognized for five minutes.
    Mr. Welch?
    Mr. Welch. Thank you very much, Madam Chair.
    I am going to be asking a few questions of Eric Sorkin very 
shortly, but I just want to introduce it by saying a little bit 
about his business.
    He and his wife, Laura, created a business called Runamok 
Maple. It produces the tastiest product in the world, and that 
is Vermont maple syrup, and they have grown it into a business 
with 75 employees.
    And we are very, very proud of our small businesses and 
Runamok Maple, and I know that my colleagues have similar 
stories about successful small businesses in their districts.
    And the question here about family leave is one where the 
debate is about whether government should play a role, and Mr. 
Keller said we should leave this up to individual businesses.
    And the reality is that most businesses, I think, are like 
the Sorkins'. If they can, they want to do whatever is possible 
for their employees. It is like a family, and I think is 
universal across the country. But there is a question of 
whether all businesses can do it.
    So, Mr. Sorkin, I want to welcome you and ask you if you 
could say why it is important for small businesses that the 
Federal Government does offer a national paid family and 
medical leave benefit.
    Does a national policy help level the playing field with 
business competitors who may not be able to or don't want to 
provide the same benefit to their employees?
    Mr. Sorkin. Thank you, Representative Welch.
    Absolutely. I completely agree. I guess from my perspective 
that it is not--it shouldn't be about whether a worker is 
working for a company that can afford to do it or not. We do it 
and that is a burden on us, irrespective of the fact that we 
feel like there is a good return on that investment.
    I don't see the downside to having a national program that 
would help workers. It would help us as well. You know, when we 
are recruiting, and we talked a lot about how hard it is to 
recruit right now, you know, we are at a significant 
disadvantage to bigger companies that can afford to do it. So, 
it would absolutely be leveling the playing field.
    Mr. Welch. Right. And as I understand it, you and your wife 
responded to a human situation. You had a valued employee whose 
wife had terminal cancer. He couldn't lose the paycheck. He 
couldn't be home, and he was caught between a rock and a hard 
place and you guys decided, hey, this is our employee. We trust 
him, value him, and we want to let him do what we would like to 
do on our own if the circumstances were reversed.
    Is that correct?
    Mr. Sorkin. That is absolutely right.
    Mr. Welch. And without any support. You had to eat the cost 
of that?
    Mr. Sorkin. That is right.
    Mr. Welch. Right. And so, you mentioned the effect on 
morale in your company that you did institute this. And by the 
way, to my colleagues, 75 employees is a small business. It is 
a big deal in Vermont.
    And by the way, maple syrup, it is a lot of hard work. You 
are out in the woods getting that maple syrup that we just get 
on our breakfast table.
    But tell--me tell us a little bit about how it affected 
morale in your company.
    Mr. Sorkin. Well, I mean, it has been--you know, a few 
weeks ago there was a statistic that, I think, Vermont had the 
tightest labor market in the country. I believe it was 5.1 job 
postings for every--for every person on unemployment.
    We recently posted a position for production associates. We 
have several that we are hiring for, and we received about 150 
applications in a few weeks.
    Mr. Welch. That is----
    Mr. Sorkin. Yes, we are pretty well known for our policies, 
and I am fairly certain that is part of why we continue.
    Mr. Welch. That is great. Let me ask you this. What impact 
did the Family First Coronavirus Response Act have on your 
company? Would your business have survived the pandemic without 
a federally funded paid leave policy?
    Mr. Sorkin. It made our decisions easier, and it kept our 
business and our employees healthy. It was--it was essential, 
no doubt about it.
    Mr. Welch. Well, I want to thank you, because I think you 
have been a successful small business. We know how hard it is 
to make an enterprise like yours successful.
    And your point about a level playing field so that all 
employers have this option where they are not putting 
themselves at a competitive disadvantage if they choose to help 
their employees, I think, is very compelling.
    Thank you, and Madam Chair, I yield back.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from the great state of Georgia, Mr. Hice, is 
now recognized.
    Mr. Hice?
    Mr. Hice. Thank you, Madam Chair.
    Ms. Manning, let me come to you. Democrats have not 
provided any information on this bill regarding the cost. Would 
you anticipate that this piece of legislation would be a good 
idea for the American taxpayer?
    Ms. Manning. I am sure it comes with some costs. You know, 
unfortunately, we don't know what that cost is. But, simply, 
the term ``paid leave'' implies that someone is paying for it. 
So, there is--someone has to be paid, someone has to pay.
    Mr. Hice. Do you have any idea what type of, just a 
estimate, something like this might cost?
    Ms. Manning. No, especially given that Federal workers 
already have paid parental leave. So, we are just talking about 
the additional marginal cost of other medical paid leaves that 
would fall outside of the parental leave category. I don't 
know. But it would come with some cost.
    Mr. Hice. Yes, and I would think the cost would be rather 
significant, and it just seems to me the logical progression of 
dealing with legislation in a responsible manner, that if you 
are going to pass legislation that is going to have a 
significant price tag associated with it, it would be a good 
idea to know what that price tag is, especially in behalf of 
the taxpayers.
    Ms. Manning. Certainly, and I think that is true, 
regardless how lawmakers feel, you know, or members of the 
public.
    If we feel that paid leave is a right or something that 
everyone should be entitled to, the question still remains, how 
do we manage limited resources, how do we pay for the things 
that we want people to have?
    And that is true of both paid leave for Federal workers and 
a broader Federal program that might provide paid leave or pay 
replacement for all workers.
    Mr. Hice. Well, beyond the cost factor is also this whole 
question of assessing how do you work your work force--what is 
the impact that something like this would have on the work 
force.
    I mean, if we are dealing with something like this, I 
shared in my opening statement, we are talking 12 weeks plus 
other holidays and benefits. A Federal worker, really, we are 
talking working eight months out of a year, potentially. So, we 
have four months of a gap.
    How does the private sector--how could anyone deal with 
employees who are gone a third of the time?
    Ms. Manning. Well, you know, I think there is a variety of 
downsides that would come with a national paid leave program 
and it is not just the cost in terms of new taxes. Of course, I 
believe that deserves examination as well.
    But when we talk about a paid leave entitlement that would 
apply broadly to the Nation, first of all, we have talked 
about--we have recognized that many employers in the private 
sector have already acted to put in place some kind of paid 
leave benefit for their employees and, in some cases, paternal 
leave and medical leave.
    When you establish a national standard through a Federal 
program, you immediately reorient all of those individualized 
private solutions that employers/employees have worked out 
between themselves and you start to create an incentive for 
employers to simply comply with the Federal standard and pay 
for the national entitlement rather than go directly to their 
work force, to their workers, and say, what can we work out, 
what kind of flexible arrangement works for you, how many weeks 
do you want, do you want to come back part time or full time or 
virtual, and so forth.
    And there are myriad different solutions that work for 
different industries, different workers, different seasons of 
life that workers might be in, and so we ought to be, at a time 
where the American economy and businesses and families are more 
diverse than they have ever been, encouraging those diverse 
solutions rather than coming forward with a one-size-all fit 
solution.
    Mr. Hice. Well, I agree with you, and at a bare minimum I 
think that any private company dealing with this type of policy 
would at least have, I would think, an assessment of sorts to 
determine the impact that something like this would have on 
their work force.
    Do you know of any such assessment that has taken place on 
the Federal Government to determine the impact that this would 
have on the work force?
    Ms. Manning. I do not.
    Mr. Hice. OK. And just a last question. I know you have 
touched on this. But coming out of COVID, which we all, thank 
God, we are coming out of, seeing the light at the end of the 
tunnel, but there is no question so many businesses have been 
kicked in the gut, individual families, livelihoods across the 
board.
    Many of them have lost everything they have had. Some of 
them just inched their way through and now trying to recover. 
Even a bill like this, were it to become law and be enacted, do 
you think that is a good idea timing wise for so many private 
individuals who have just suffered tremendously?
    Ms. Manning. Well, I certainly think it is the case that 
one of the biggest economic problems, particularly for 
Americans who are in poverty or on the brink of poverty, is the 
lack of an income, full stop.
    They need a job. They need income. And the requirement that 
or the suggestion that those jobs have to come with a full 
plate of benefits, whether it is health insurance or an 
increased minimum wage or these paid leave proposals that we 
are talking about today, that simply increases the cost of 
creating those jobs that Americans desperately need and want in 
order to provide for themselves and their families.
    Mr. Hice. Thank you very much, Ms. Manning.
    And with that, I will yield back. Thank you.
    Ms. Porter. [Presiding.] Thank you very much.
    The chair now recognizes herself for five minutes for 
questioning.
    Ms. Bigelow, you have said that you worked from the day 
that you gave birth to your child. Could you explain, briefly, 
why you felt like you had to be working up to the very last 
moment before you gave birth?
    Ms. Bigelow. Sure, and after, too, that day, because every 
moment was really critical to getting the most time that was 
paid for me after--after my FMLA started, and it was unpaid.
    So I knew that, like, if he was going to be in the NICU for 
10 days if I could still do some work there, and that would buy 
me 10 extra days to actually bond with my baby.
    Ms. Porter. That really resonates with me. I had three 
children while teaching as a professor, and I was scheduled to 
teach a class on the day of my planned Cesarean section with my 
third child, and the dean, ultimately, prevailed on me to 
reschedule and cancel that class. But I really felt the need to 
use all of the time that I could.
    And I know you said that you returned to work sooner. What 
was--what motivated that? Was it the stress about your family's 
financial stability? Was it concern about your career? How did 
that affect your decisions about giving birth and having a 
child and how it intersected with work?
    Ms. Bigelow. So, I did take 12 weeks off, but instead of 
only missing one or two paychecks I ended up missing more 
because I took time off when I was in the hospital and I took 
time off for all of those appointments.
    And there was a government shutdown in between, so it was a 
very stressful time, you know, just trying to juggle all the 
finances of having a new baby, having a new house, and all 
those things.
    And so, it was, you know, a very difficult decision to try 
to be determined and try--and to be there for my family because 
I knew that was going to be more important than a job.
    Ms. Porter. You have also written about your mother's fear 
of taking time off from her retail job to care for you. Can you 
talk about what that meant for your family?
    Ms. Bigelow. Yes, and I think people are very--they grow up 
and you have a reaction to how your environment is, and it made 
me, you know, really dedicated to this work and to know that I 
needed to fight for the kinds of policies in workplaces that 
didn't cause fear for workers.
    And I think for my mom, and when she was trying to take 
care of me, she always was worried that I would be sick. She 
was worried that she could be sick, and that created a lot of 
stress in our household.
    And I know that impacts everyone's health, and those are 
things that I really didn't want to pass on for my family.
    Ms. Porter. Well, and I think it is clear that the need for 
paid leave is not new, although the pandemic may have 
exacerbated or reignited interest in this issue.
    The reality is that we have multiple generations now of 
working women and families that have been harmed by a lack of 
paid leave and it has disproportionately hurt people who work 
particularly in industries like retail and food services, for 
whom even a few days of unpaid paid time off could jeopardize 
their job or their ability to put food on the table.
    Ms. Shabo, turning to you, how much do American families 
lose each year in income as a result of insufficient paid leave 
policy?
    Ms. Shabo. Thanks for the question, Representative Porter.
    The Center for American Progress estimates $22.5 billion 
lost to families every year because of a lack of paid leave or 
ineffective--insufficient paid leave.
    Ms. Porter. Twenty-two point five billion dollars is an 
awful lot of groceries, an awful lot of diapers, an awful lot 
of utility bills that people are going without.
    And about how many workers are we talking about here who 
contribute to that $22.5 billion? How many workers are being 
harmed by this?
    Ms. Shabo. Yes. I mean, around 20 million workers a year 
take paid leave--take FMLA leave, and only a small share of 
those are paid adequately or paid at all.
    Ms. Porter. And we have talked about a lot of--and, you 
know, some of my colleagues in this committee hearing today 
have talked about this as a, you know, progressive priority. 
This is a women's issue. This is a kid's issue.
    Ms. Shabo, who is hurt by the lack of paid leave in this 
country?
    Ms. Shabo. Everybody is hurt by the lack of paid leave in 
this country, whether it is you directly or the economy or a 
business. This is not an--It is not a frill. It is a necessity 
for getting our economy back on track and creating households 
that are stable and secure, going forward.
    Ms. Porter. Are men hurt by a lack of paid leave?
    Ms. Shabo. Absolutely. We did a report at New America on 
men and care giving, including a big national survey, finding 
that men want to be able to provide care. They want to be able 
to be there for their families. But, you know, not only is it a 
matter of not having access to pay or fearing for your job, 
it's also stigma around the gendered nature of care, and when 
men want to break out of that mold they have a hard time.
    Ms. Porter. How about Democrats? Do they--Democratic 
workers want to take paid leave?
    Ms. Shabo. All workers want to take paid leave. All workers 
want to know that paid leave is there for them when they need 
it, and that is why we see in polls before the pandemic, during 
the pandemic, now, 85 percent of workers want national paid 
leave.
    That is 75 percent of Republicans, 80 something percent of 
independents, and 95 percent of Democrats. The only place this 
is a partisan issue is in the halls of Congress, and in some 
legislatures but not all legislatures.
    So, we have seen laws passed with bipartisan support in 
Oregon and Washington and Massachusetts, and there is no need 
for the partisan division here. This is common sense.
    Ms. Porter. Absolutely. And so Republican workers, 
Democratic workers, independent voters, voters, workers who 
vote, workers who don't vote. People are having families and it 
effects not just the worker, but it affects the work force, 
broadly.
    And so, one of the things I say over and over again, and I 
just want to say it here to echo what you just said, that paid 
leave is not something that we do just for women, just for 
kids, just for progressives, just for whatever.
    Paid leave is something we do for everyone, whether you 
have never had a child or never want one, whether you are 50 
years past your childbearing years or you are just entering 
them.
    Paid leave makes our economy stronger, and I don't think 
there is any American who shouldn't want our country to have a 
strong globally competitive economy and we can't do that 
without paid leave.
    Thank you very much.
    I am now going to recognize Mr. Johnson, the gentleman from 
Tennessee, for five minutes.
    Mr. Johnson. OK. I want to thank the chairwoman for holding 
this hearing, and this issue of paid family and medical leave 
is one that is so important, and I thank the witnesses today 
for their testimony and advocacy efforts because Americans 
faced unprecedented challenges during the COVID-19 pandemic--
600,000 dead, 34 million infected, and many people are still 
living with life-altering health consequences.
    And the experiences of our constituents have shown us that 
the Federal Government must implement a comprehensive paid 
family and medical leave policy and we must do so now.
    It is a shameful tribute that it has taken us this long. 
The moment is here, and we must not let this moment pass. Even 
my home state of Georgia, which is ground zero for voter 
suppression, recently established three weeks of paid parental 
leave for state employees.
    While we still have plenty of work left to do, this 
advancement was the latest result of tireless work by advocates 
from across the state and the Nation, and I want to applaud you 
for your efforts, and I know that those efforts will continue.
    I keep hearing from my friends on the other side of the 
aisle today about the costs of paid family and medical leave to 
the taxpayers, and that we can't afford to do family medical 
leave.
    I would remind my friends that it is the working people who 
pay the taxes, not the wealthy and the corporations. They don't 
pay taxes because of all the loopholes in the tax code that 
they use to shelter their income.
    And everyone will--we will never forget the Trump 
Republican Party tax cut of 2017, which cut $5.8 trillion 
dollars in taxes for 83 percent--excuse me, for the top one 
percent.
    Eighty-three percent of that $5.8 trillion in tax cuts went 
to the top one percent, while at the same time raising taxes on 
working people to try to fill the hole in the Federal deficit.
    Yet, it is those same wealthy people and corporate 
interests, most notably the U.S. Chamber of Commerce, the Koch 
brothers, and others, who have the biggest influence on policy 
because of their ability to spend dark money, putting pro-
business politicians in office who do their bidding rather than 
serve the people.
    Big business and the politicians who support them are the 
ones who oppose family and medical leave protections for 
workers and working people who pay the taxes should be able to 
allocate their taxes to support themselves during their times 
of need rather than subsidizing the wealthy who don't pay 
taxes.
    Ms. Bigelow, in 2018, the National Partnership for Women 
and Families conducted a nationwide survey on paid leave. What 
did the survey reveal about American workers' support or lack 
thereof for the concept of paid family and medical leave?
    Ms. Bigelow. Thank you, Congressman, for that question.
    We have actually done a number of different surveys beyond 
2018 and even as recently as last year, and we always find that 
paid leave has bipartisan support, and it has a majority of 
support from Republicans, Democrats, and independents.
    Mr. Johnson. Yes, in fact, 94 percent of Democrats and 73 
percent of Republicans supported paid leave. Isn't that 
correct?
    Ms. Bigelow. Yes, that sounds right.
    Mr. Johnson. Now, these numbers are staggering, and I can't 
think of another policy proposal with such bipartisan support. 
But yet, states across the Nation have not been responsive to 
public support for expanded and comprehensive paid leave 
policies.
    What factors are contributing to the failure of states to 
pass laws requiring that workers receive paid leave?
    Ms. Bigelow. Well, you know, I will say there has been a 
lot of momentum in the states over the past few years to pass 
paid leave laws. But I really think it is time for a national 
policy, for a national standard.
    And so, while our campaigns still are being started in 
different states, I think what we are seeing in, like, a lot 
of--a lot of these areas, it is a bipartisan issue. But we are 
also working to get a national--yes.
    Mr. Johnson. Well, you are right about that. What is 
stopping us from getting a national paid leave policy passed?
    Ms. Bigelow. I think there is a lot of misconceptions about 
what this means and, particularly, it sounds like the cost 
issue. The fact of the matter----
    Mr. Johnson. And so--and so those who are not paying the 
costs want to--want to dictate to those who are paying the cost 
what--how to allocate that money. It is really quite----
    Ms. Porter. The gentleman's time has expired.
    Mr. Johnson. It is really quite ridiculous. And with that, 
I will yield back.
    Ms. Porter. Thank you so much, sir.
    The chair now recognizes the gentleman from Kentucky for 
five minutes.
    Mr. Comer, you are on mute, sir. We look forward to hearing 
from you.
    Mr. Comer. Thank you, Madam Chair.
    I don't know where to begin. I have been sitting patiently 
listening to the comments from my Democrat colleagues. I sat 
through the technical difficulties of having a virtual hearing 
when we could all be right down the hall in the committee room.
    You know, one thing that Representative Davis said, he 
said, you know, we need to keep the Federal work force 
satisfied. I mean, that is a disconnect with reality--with the 
reality of the taxpayers.
    The Federal work force needs to keep the taxpayer satisfied 
with the production and with the way their tax dollars are 
being spent.
    We just had a briefing with the VA. Right now, if a veteran 
calls any of our offices and asks for their VA records, it may 
take a year for them to get the--to get their records from the 
VA. The VA--I asked the question, are your workers back to work 
yet? Oh, no. No. It is still--you know, it is still dangerous 
to be out there.
    Well, those poor veterans. You know, people in the private 
sector have had to go back to work. We just passed the 
Juneteenth bill last week with overwhelming bipartisan support 
that gave the Federal workers another day off, and the next 
committee hearing we have in Oversight talk about more Federal 
benefits and perks, perks, for Federal employees.
    The biggest problem in America right now is workers can't 
find employees. They can't find employees. Factories aren't at 
full production. Our economy isn't anywhere near its potential 
because of the policies of the Biden administration, the 
policies to pay people to continue to work--to continue to not 
work, to sit at home.
    And with all the problems in America right now, with all 
the hearings that we have pleaded to have with the majority, we 
have a border crisis. We have a crime crisis in the big cities.
    We have inflation. We have credible evidence that shows, 
despite your all calling it conspiracy theories, that COVID 
started in Wuhan. You don't want to have any hearings on that. 
Nothing on that.
    You know, we are not blaming you all for COVID. We are 
blaming China for COVID. We want to have hearings--bipartisan 
hearings on that.
    You want to give Federal workers more benefits, more--
continue to pay people not to work. It is just a total 
disconnect.
    It's a total disconnect, and it highlights the differences 
between what Republicans in the House are pushing for and 
fighting for, and what Democrats in the House are fighting for.
    Ms. Manning, what should the process be to consider paid 
leave vacation, to fully understand the costs, tradeoffs, and 
consequences?
    Ms. Manning. Well, every employer will have to do their own 
cost benefit analysis. The Federal Government has to do a cost 
benefit analysis, and it sounds like there hasn't been 
sufficient exploration of the costs without a cost estimate 
from CBO or elsewhere.
    But other private employers have to make a different 
calculus, their own cost-benefit analysis based on their work 
force, their retention, their attractiveness to workers and so 
forth, and what makes the most sense for them.
    Mr. Comer. So, you would agree that the process--this bill 
hasn't gone through an appropriate process to be able to 
determine the costs and the effects on production and the 
consequences? What is your biggest concern with this bill?
    Ms. Manning. Well, my biggest concern with the bill and 
more so the hearing and the way that this issue is being 
presented is, you know, I would be careful not to misconstrue 
public support for the concept of paid leave and support for a 
particular policy, especially without a full examination of the 
tradeoffs and downsides associated with that proposal.
    So, for example, the Family Act, which is the leading 
proposal to establish a national comprehensive paid leave 
entitlement, comes with a very significant downside.
    And I appreciate lawmakers' concern about low-income 
workers, but it would establish a regressive payroll tax that 
would cost low-income workers and families, and those are the 
folks who are least likely to benefit from programs like this 
one, as we have seen demonstrated in several of the states that 
have experimented with programs like this and several countries 
abroad that have experimented with programs like this.
    It is a regressive policy that redistributes wealth from 
low-income people to upper and middle-income families.
    Mr. Comer. I agree completely. Thank you for your comments. 
I want to thank all the witnesses for being here and I want to 
add to that, inflation is a regressive tax and the policies of 
this administration are creating inflation, which is a tax on 
low-income and poor families.
    Madam Chair, I yield back.
    Mr. Kelley. Madam Chair, may I--may I speak to something I 
just heard?
    Ms. Porter. Yes. Please pause. Just hang on one second, 
please, Mr. Kelley.
    Mr. Kelley. No problem. No problem. Yes.
    [Pause.]
    Ms. Porter. I am sorry, Mr. Kelley. I am going to move on 
to Mr. Sarbanes, the gentleman from Maryland, and hopefully you 
will have a chance to speak again later in the hearing.
    Mr. Sarbanes, you are now recognized for five minutes.
    Mr. Sarbanes. Thanks very much, Madam Chair. Actually, I am 
going to be asking Mr. Kelley a question so he may want to take 
a chance to offer his thoughts that he had.
    I am hitting some of the high points that have already been 
covered, but I think it is important.
    So again, in 2020, we know that Congress passed the 
bipartisan--I emphasize that bipartisan--Families First 
Coronavirus Response Act, the FFCRA, which had two major 
provisions related to paid leave.
    As we know, the first provided 12 weeks of partially 
compensated family and medical leave for coronavirus-related 
care giving reasons, including for childcare and schools where 
daycare centers were closed due to the pandemic.
    The second provision provided up to two weeks of paid sick 
leave for reasons related to the pandemic. The FFCRA also 
included tax credits. This was very important for employers to 
help them cover costs for this paid leave.
    And then in March 2021, when we passed the American Rescue 
Plan, it extended the tax credits to businesses, also provided 
additional paid family medical leave for Federal employees for 
coronavirus-related reasons.
    Mr. Kelley, many Federal employees, including your members, 
have been on the front lines of the government's response to 
the pandemic. Of course, this includes many essential workers 
who continued to work onsite throughout the pandemic.
    How have the Federal Government's coronavirus leave 
policies helped Federal employees take care of themselves and 
their families while at the same time serving their nation?
    Mr. Kelley. Well, you know, and that is a good question, 
and I appreciate it, too. But the passing of these bills has 
helped tremendously, OK, because a person don't have to worry 
about the stress of going to job, and the possibility of being 
contracted with this virus but they are still able to, you 
know, perform for the American people.
    You know, and so it is very important that this bill was 
passed. OK. But I want to just say that this is about, you 
know, emergencies--emergency situations. I also want to 
reiterate the fact that, you know, the VA never stopped 
working. That's what I wanted to comment on earlier, if I may.
    The VA never stopped working. Telework is working from 
home. Not not working at all, but it is working from home. And 
as a matter of fact, production went up. Telework and paid 
leave made it possible to keep things going, OK, and that is 
the point that I wanted to make earlier, and it is just in line 
with the question that you asked.
    Mr. Sarbanes. Well, actually, I appreciate you mentioning 
telework just because I have worked on that issue for many, 
many years, proud of the Telework Improvement Act that we 
passed here in Congress.
    It was signed into law a few years back, which really 
upgraded the telework policies across the Federal Government in 
a way that did, as you say, contribute to productivity in very 
measurable ways.
    And I assume that the policies we put in place that we are 
discussing today that helped Federal workers during the 
pandemic were also really critical in terms of keeping the 
employee morale high, or at least not taking a huge hit at a 
time when people were feeling a lot of stress.
    So, that is one of the reasons it is--it is so important.
    Ms. Shabo, I wanted to get your views on the effect that 
these leave provisions in the FFCRA and the American Rescue 
Plan have on the private sector. In other words, what role did 
they play in helping workers and businesses weather the 
pandemic?
    Ms. Shabo. That is a great question. Thank you so much.
    You know, the FFCRA put in place for the first time ever 
paid sick leave and paid childcare leave that was required of 
certain businesses and available to certain employees.
    It is estimated to have prevented 15 million COVID cases 
per day nationwide at the height of the pandemic. Businesses 
were able to get tax credits to reimburse them for the leave 
that they were required to provide.
    In December, the requirement went away. The tax credits 
remained, which is great for businesses that take them. But 
this is leaving behind millions of workers and it is why we 
can't ever go back to a situation where workers don't have 
access to paid leave and where the private sector doesn't have 
the support that it needs in guaranteeing access to paid leave.
    And that is why a policy like the Family Act or the 
American Families Plan or the Neal Building an Economy for 
Families Act is so critical because it will put in place the 
stability that businesses and workers need, going forward, for 
public health emergencies like COVID, and for individual family 
situations and emergencies in perpetuity.
    You know, the private sector, I think, during COVID saw 
that government could provide support for paid leave, and 
businesses like Eric's here benefited from it.
    Mr. Sarbanes. Thanks very much.
    Madam Chair, I yield back.
    Ms. Porter. The chair now recognizes Ms. Speier, the 
gentlelady from California.
    Ms. Speier. Thanks, Madam Chair.
    Let me just start off by commenting on what my good 
colleague, Mr. Comer said. He hasn't ever had a baby. So, maybe 
he thinks it is a vacation.
    But for those of us who have been moms, who have given 
birth to children, it is no vacation. It is stressful, it is 
challenging, and his comment is truly insulting to every mother 
in this country.
    Second, I think we have lost sight of what this is all 
about. This is about creating a national program where both the 
employee and the employer will contribute so that there will be 
the opportunity for paid leave for employees.
    Now, we already know that only 19 percent of the employees 
in this country have paid leave, and for those that are 
concerned that this is somehow going to impact poor people, 
well, poor people have even less opportunity for paid family 
leave now. It is, like, eight percent.
    So, you know, we are the only industrialized country in the 
world that has this caveman attitude about parental leave, and 
we have got to grow up.
    We have got to recognize that it takes a two-income family 
to make it in this country today, and we have got to make it 
easier on both parents.
    And I am just going to speak about one bill in particular 
and ask for some commentary on it. Believe it or not, our 
service members do not have the same parental leave benefits 
that our Federal employees have, and I guess the question I 
have is, are my Republican colleagues willing to support a 
bipartisan bill, co-authored by Congresswoman Bice and 
Congressman Joyce, to equalize that for the men and women in 
our country who will put their lives on the line, but whose 
parental leave is less than what it is for Federal employees?
    Let me start with Ms. Shabo. Why do you think these kinds 
of benefits are important for all but, particularly, for 
service members?
    Ms. Shabo. Well, reams of research show the importance of 
gender-equal parental leave in terms of maternal health, child 
outcomes, fathers' engagements. For service members, if we are 
serious about creating a diverse and inclusive military, we 
have to ensure equitable parental leave.
    This means that male service members will be able to take 
care of their new children at equal levels. It will make the 
Federal--the military service, again, competitive.
    It will help ensure that as young people who enter the 
military make decisions about whether to stay, it will make 
them more likely to stay.
    I actually had a law student working with me. He and his 
wife actually both left the military as they were thinking 
about having children because of the inequitable paid leave and 
the lack of paid leave for dads.
    So, this is a real issue for military readiness and 
competitiveness, and more than that, we also need to 
destigmatize care giving that is so often falling on women and 
holding women behind, including in the military.
    So, for all those reasons, I think that bill is really 
important, and creating equity between the genders in military 
service for parental leave is critically important.
    Ms. Speier. Thank you.
    Mr. Kelley, you are an Army veteran and former Army 
civilian employee, and I think you are also aware of the 
challenges for our families of the Reserve and National Guard, 
and they have no comprehensive paid leave policies to support 
these military families.
    Can you comment on the burdens and stress associated with 
that?
    Mr. Kelley. Yes, I think the burden and the stresses is the 
same as anyone else, right, and we have heard throughout the 
day of how it is a burden on any family member, right, that 
doesn't have the paid leave.
    I mean, the fact that if you are, you know, not able to 
spend time with your family, your newborn baby, or whatever, 
you know, it stresses, right. There is just stress all around.
    So, I think the impact for the military is the same impact 
that you have for anyone else. So, I think it is a benefit that 
everyone should be able to share.
    Ms. Speier. Thank you. And let me just close by saying, at 
one point in my congressional office I had two of my staff 
members out on parental leave, my chief of staff and one of my 
leg staff, for three months, and the sky didn't fall.
    We were able to conduct business, do the job, and it was a 
great benefit to them, and they were very grateful for it.
    So, if we are truly a country that supports family values, 
it is time to show it.
    And with that, I yield back.
    Ms. Porter. Thank you very much.
    The chair now recognizes Ms.--the gentlewoman from 
Illinois, Ms. Kelly, for five minutes.
    Ms. Kelly. Thank you, Madam Chair.
    You know, my colleagues on the other side of the aisle 
argue that Federal employee benefits are already generous, and 
they are--and that Federal employees don't need another leave 
benefit.
    I would like to remind my colleagues about the 35-day-long 
government shutdown from December 22, 2018, to January 25, 
2019. During that time, 800,000 Federal employees were either 
on furlough or were working without pay.
    More than 60 percent of those workers reported exhausting 
their savings during the shutdown, which tracks with the 63 
percent of Americans who don't have enough savings to cover a 
$500 emergency. Federal workers endure the same hardships and 
financial insecurities as many of their fellow Americans.
    Mr. Kelley, can you tell us about what kind of financial 
hardships Federal employees have endured during the 2019 
shutdown, the pandemic, or even over the course of their 
careers?
    Mr. Kelley. Again, that is so--a great question. You know, 
think about the--and you have heard me reference TSA quite a 
bit, right. Think about the fact that this TSA work force 
average about $35,000 a year, OK, and not getting paid, but 
still having to travel back and forth to work in a metropolitan 
area like New York City, like Washington, DC, OK.
    They have to go back and forth to work. You know, they have 
to take care of childcare and all these types of things, you 
know, and they are not getting a paycheck. You know, some of 
them lost their homes, right. Some of them couldn't get back 
and forth to the doctor.
    I mean, it was all kind of crisis coming up, you know, and 
that is just with the TSA work force. But throughout America, 
there was all kinds of employees that were being affected, you 
know, because, like you said, you know, $500 is a lot to a lot 
of people and they couldn't work, right.
    They weren't getting paid, you know, and they couldn't come 
up with the house note. They couldn't come up with a car note, 
and many of them lost their homes, lost automobiles, and those 
type of things.
    Sure go back and rectify, you know, what is going to happen 
in the future. But it didn't help the fact that many of those 
employees lost their homes. Many of them, you know, lost their
    [inaudible] if you will
    [inaudible] the American work force.
    Ms. Kelly. And thank you for that.
    While the Federal work force falls within this committee's 
jurisdiction, I support comprehensive paid family and medical 
leave for all workers.
    Ms. Shabo, can you explain to us why paid family and 
medical leave is not some superfluous perk, but an essential 
requirement for the health and prosperity of American workers 
and businesses?
    Ms. Shabo. Absolutely, Representative Kelly. Thank you.
    Paid leave is essential for all of us because, at one time 
or another, every single working person is going to need to 
take time to care for themselves, to care for a loved one, or 
to welcome a child into their family.
    And yet, now just one in five workers and just five percent 
of lower-wage workers have access to paid family leave. This 
means families are losing, on average, a thousand dollars a 
year.
    Families in the aggregate are using 20--are losing $20.5 
billion a year. Businesses are incurring costs up to 200 
percent of the cost of turnover when workers leave, and the 
economy itself is losing out. Five hundred billion dollars a 
year is estimated that paid leave--lack of paid leave before 
the pandemic.
    The flip side, McKinsey estimates that the GDP of the U.S. 
could grow by $2.4 trillion if we address gender inequities, 
and paid family and medical leave is a big part of that.
    Ms. Kelly. Thank you so much, and I yield back the balance 
of my time. But thank both of you so much.
    Chairwoman Maloney. [Presiding.] The gentlelady yields 
back.
    And the gentlewoman from the great state of Massachusetts, 
Ms. Pressley, is recognized.
    Ms. Pressley. Thank you, Madam Chair.
    All I can think about as I have been sitting here is there 
but for the grace of God go I. Many of my colleagues today have 
really proved that our greatest deficit as a nation is not one 
of resource, but of empathy.
    Our greatest wealth as a nation is the health of our 
people, and a meaningful, universal, and permanent paid leave 
policy is about the health of our people, about the 
stabilization of our families.
    So, many of your opinions fly in the face of what you often 
characterize as your promotion of family values. This really 
flies in the face of that and, furthermore, proves that you 
value people's labor, in the traditional sense, more than you 
do their very lives.
    As someone who had the honor of being a care giver to my 
mother in the final weeks of her life as she valiantly battled 
leukemia, although I was away from work, I was certainly not 
off.
    It requires great emotional and physical labor, and there 
is no place else in the world that I would have rather been to 
support my mother in her transition.
    Your comments not only dishonor parents, people who have 
grown their family through adoption, but the millions of 
caregivers who, in this moment, feel alone and unseen, you have 
just contributed to that hurt.
    But let me get to my questions.
    Ms. Bigelow, there has been a long and inaccurate 
assumption that people with disabilities are only the 
recipients of care, and not the providers of care, when the 
reality is that people with disabilities play both roles and 
often face barriers to benefits and services as a result.
    Can you elaborate on the importance of centering people 
with disabilities in any effort to advance universal paid 
family and medical leave?
    Ms. Bigelow. Yes, thank you, Congresswoman, for this 
question. It is a really important point to make.
    People with disabilities are a valuable part of our 
communities and our work force. A disability-inclusive paid 
leave program can help support people with disabilities to more 
fully participate in the economy and have economic 
independence.
    A recent analysis of FMLA data found that nearly 16 percent 
of workers who took any leave in the past 12 months may have 
done so for a disability, and nearly one-third of those workers 
with a disability also had at least one child under 18.
    So, it is important to remember that workers with 
disability already have lower incomes, meaning they are less 
likely to have savings to rely on. So, centering them in the 
paid family and medical leave policy will really help bring a 
financial lifeline to them, which is part of their economic 
stability.
    Ms. Pressley. Thank you. As I transition, I wanted to ask 
the chair if I could enter a report into the record. The report 
is titled, ``Paid Leave is Essential for Healthy Moms and 
Babies.'' It is by the National Partnership in collaboration 
with the National Birth Equity Collaborative.
    Chairwoman Maloney. Without objection.
    Ms. Pressley. All right. So, we have spoken about the 
disability justice, a part of this that is often overlooked. I 
wanted to talk about pregnancy loss, which is also often 
overlooked, and other health events. Three out of four people 
who take paid leave do so for reasons outside of maternity or 
parental care.
    Ms. Bigelow, why is it important to establish a national 
paid leave program that supports a diverse array of care needs?
    Ms. Bigelow. Like you said, the majority of people need 
time off to care for a family member's serious health issue or 
their own, and this is for things like cancer treatment, to 
help an aging parent recover from a fall, or to be with a child 
in the hospital.
    Comprehensive paid leave improves health outcomes for those 
who need care and prevents people from having to make 
impossible choices between being there for their families and 
their own health, and their jobs and income.
    It is also important for gender equity, because women are 
more likely to take parental leave. A policy that only covers 
new parents could reinforce gender discrimination.
    So, finally, as the population in the work force that are 
both aging, a comprehensive paid leave policy is just smart 
economics to ensure older workers can continue working and can 
manage work with caring for an aging parent or loved one.
    Ms. Pressley. Thank you.
    And, Ms. Shabo, what are some of the policies--I want to 
talk about those that are receiving SSI and SSDI. What are some 
of the policies, Ms. Shabo, that this committee should be 
considering when it comes to ensuring that a paid family 
medical leave program is inclusive for individuals who work and 
receive supplemental security income?
    Chairwoman Maloney. Your time has expired but, Ms. Shabo, 
you may respond to the gentlelady's question.
    Ms. Shabo. I'll be brief. Thank you for the question.
    I think we need to ensure that any new programs we put in 
place are not taking away rights to other programs for people 
who are working.
    So, somebody who has--is on SSI or has a partial disability 
but is working part time, and then needs to take leave, must 
have that portion of their wages replaced and not be barred 
from accessing either of those benefits because of the receipt 
of the other.
    The point here is to pull low-income people and people who 
are living paycheck to paycheck, just barely, up to the level 
where they are going to be able to continue to pay their bills 
and make ends meet and have security for themselves.
    This is--this is about stabilization, financial 
independence, and well being.
    Chairwoman Maloney. The gentlewoman's time has expired.
    The gentlewoman from the great state of Michigan, Mrs. 
Lawrence, you are now recognized.
    Mrs. Lawrence. Thank you so much. I want to thank the panel 
for being here. I am so happy we are having this discussion.
    I just want for the record, again, to reflect that I spent 
30 years working for a Federal agency, and nothing has changed 
now that I am in Congress. I am a mother. I was a daughter. I 
am a daughter. I have family.
    Just like as a Member of Congress, if any of us have a 
family emergency or we have a crisis, we are paid leave to be 
able to care for our families. Federal workers should not be 
exempt from that, and some of the privileged conversations I am 
hearing is really heartbreaking.
    I am co-chair of the Women's Caucus. But one of the issues 
I want to emphasize while we talk about the impact of women, 
and pregnancy, and being the number-one caregiver in almost 
every family, this is a family issue.
    I had a town hall where a man said, Congresswoman, almost--
I will have no vacation. I have used all my vacation time to 
care for my children during this pandemic.
    And so, I want the sensitivity of this body to think about 
human beings who are our Federal workers, who show up every day 
to do the work, who have worked as front liners during this 
pandemic.
    Ms. Shabo, would access to paid leave help women maintain 
the work force participation? Now, we are struggling with this 
disappearance of women in the work force. Can you please talk 
to that?
    Ms. Shabo. Absolutely. I think COVID brought into sharp 
relief the invisible caregiving that is happening. Women bear a 
disproportionate share of that caregiving. But one of the 
reasons we need gender-equal leave is both to recognize the 
caregiving as it is happening today and encourage a more 
equitable division, going forward.
    You know, something that has really struck me recently is a 
survey finding from Bipartisan Policy Center and Morning 
Consult, which found that 38 percent of currently unemployed 
workers, I think as of April, said that they would be more 
likely to return to work sooner if their next employer provided 
paid family leave, and that was particularly true of unemployed 
parents, nearly half of whom said it would help them return to 
work sooner.
    So, this idea that providing paid leave keeps people out of 
work is exactly backward. People need access to paid leave to 
know that they can show up, they can do their best work, and 
that they are going to be able to take the time that they need 
and then come back if they do need to take time for a 
caregiving need.
    And that is particularly true, in this survey, of Black 
workers and Latinx workers who cited care giving as a reason 
that they had to leave the work force, compared to white 
workers.
    Mrs. Lawrence. I appreciate that. And the other issue that 
we, as Members of Congress, should understand, the fact that 
the emergency leave, if my child is sick, a lot of care giving 
facilities will say if your child has a sniffle or a cold, 
don't bring them in. You keep them at home and take care of 
that child.
    I know for a fact that there are women who, if they had the 
ability to take leave, would maintain their employment. But 
because they don't and because of childcare--and this is on 
another platform that we must provide as a country, the 
sensitivity to the need for childcare in America.
    The last question is to Ms. Kelley. The temporary paid 
leave measures for Federal employees help members. I know that. 
But do you believe that Federal employees who have--now have 
guaranteed paid parental leave have been able to take advantage 
of this emergency--temporary emergency paid leave, demonstrates 
that we need to make this permanent?
    Mr. Kelley. Did you say Ms. Kelly or Mr. Kelley?
    Mrs. Lawrence. Mr. Kelley. I am sorry.
    Mr. Kelley. OK. All right.
    So, I certainly think that, you know, it demonstrates that 
we need to make this permanent because, you know, we have heard 
more than--I mean, I don't know how many stories I have heard 
of how much it has been a benefit to have the temporary paid 
leave, right.
    And so it tells us that if we were to make it permanent, 
then morale is definitely going to be boosted because employees 
are happy for the measures that the lawmakers took and 
considered them, considered their well being, considered their 
family and all those things.
    It meant so much to them, and to put something permanently 
in place for that, I think, would only send the right message.
    Mrs. Lawrence. Thank you, Mr. Kelley. Forgive me for using 
the wrong title.
    Mr. Kelley. It is OK.
    Mrs. Lawrence. I just want to say to everyone, Federal 
employees are the backbones of this country, and when I hear 
discussions about them getting too much, you don't say that 
when they give everything to keep this country running, our 
democracy, our government, our services that we provide that 
makes us America.
    Thank you, and I yield back.
    Chairwoman Maloney. I thank the gentlelady. She yields 
back.
    And the gentleman from the great state of California, Mr. 
DeSaulnier, is now recognized.
    Mr. DeSaulnier. Thank you, Madam Chair. Thank you for 
having this hearing. Thank you for the leadership on this 
subject, and thank you for the manner that this hearing is 
being held.
    I wanted to talk about the impact on regional economies and 
small businesses, as a former small business owner.
    Mr. Sorkin and Ms. Shabo, if you could comment on this 
challenge of--that 70 percent of small business owners want to 
provide these kind of benefits, but only 15 percent are.
    So, I also come from a region in the San Francisco Bay area 
where the state of California, local government in Northern 
California, and large private employers, really, were at the 
forefront of this.
    So, we have had enough time to start to see that some of 
the benefits accrue to small businesses, as someone like 
myself, who was a retailer. There is more disposable income out 
in our economy that also benefits.
    So, this conundrum of doing what small business wants to 
do, according to surveys, but the challenges they have vis-`-
vis cash-flow, maybe you could comment on that, Mr. Sorkin, and 
your own personal experience.
    And, Ms. Shabo, if you could followup with any thoughts you 
have.
    Mr. Sorkin. Sure. Thank you, Congressman.
    You know, I don't--I don't know any employees or any 
workers who don't want paid family and medical leave. It really 
comes down to the ability of small businesses to afford it, 
particularly in the smallest businesses and in startups.
    You know, cash-flow can be a real headwind to getting that 
done. So, having Federal support for that is just a game 
changer. It is as simple as that to me. It is really--in my 
mind, it is a no-brainer. I don't--you know, I know a ton of 
businesses who would really appreciate the Federal support.
    Mr. DeSaulnier. Ms. Shabo, any observations?
    Ms. Shabo. Absolutely. I mean, I think what is really 
exciting is that we now have seven jurisdictions that have paid 
family and medical leave programs in place and functioning, and 
in the four that have been functioning the longest there are 
studies in each one of those that shows that businesses and, 
particularly, small businesses have benefited.
    They have benefited in terms of productivity. They haven't 
seen any negative impacts. More than a majority of small 
business owners in each of those jurisdictions support the 
programs that are in place. It has improved retention. It has 
improved, in just the study that was done in New York recently, 
their ability to navigate long leaves.
    You know, I really commend Mr. Sorkin for providing what 
his employees need on a one-to-one basis. But the reality is 
that many of his peer companies don't do that, can't do that 
even if they want to do that, and that is the reason that we 
need a national program.
    Far from the talking points by opponents, you know, this 
isn't about increasing costs. It is not about diminishing 
flexibility. It is about ensuring that every worker can take 
access, can take the time that they need to care for themselves 
or a loved one. Have their employees be more likely to come 
back to work.
    And we just don't see any of the negative impacts that 
doubters like to say will occur. We just don't. Each state has 
figured out how to deal with it, and San Francisco is a great 
example of that.
    Mr. DeSaulnier. Thank you.
    Ms. Bigelow, your organization has done some research on 
attracting and retaining work force. Again, my experience in 
the restaurant business in a high-cost area, being able to 
retain employees, I wanted to be able to pay them enough and 
also provide them with these kind of benefits.
    So, your research indicates that providing for this helps 
small businesses. I wonder if you could comment on that.
    Ms. Bigelow. Yes, I think that that is true because, just 
like we have heard from Mr. Sorkin here, it is very hard to do 
this on your own, and what we have learned from these state 
programs is that this is a really great equalizer for small 
businesses to compete with the larger companies like in your 
district that already offer it, a lot of the tech companies.
    And this is really a core reason why we are fighting for 
paid leave for all, not because all businesses should be able 
to provide this, and all people should be able to have it, no 
matter where you work.
    Mr. DeSaulnier. Madam Chair, I want to thank all the 
witnesses and I want to thank you again. There is a challenge 
here and it is a short term versus, I would say, medium term.
    In our experience here in Northern California, there were 
pressures, particularly on small businesses that had a small 
rate of return, like the businesses I were in.
    So, you tend to hunker down and say, I just want to make my 
next payroll. But in the very near term, I think, within a year 
or two, you could see the benefits.
    And last, Madam Chair, just personally, I am reminded today 
of wisdom from my Irish mother, who used to tell myself and my 
three brothers, weak men attack strong women.
    So, thank you for your leadership.
    Chairwoman Maloney. The gentleman from California, the 
great state of California, Vice Chair Gomez, is recognized.
    Representative Gomez?
    [No response.]
    Chairwoman Maloney. Mr. Gomez, you are now recognized.
    Mr. Gomez. Thank you so much, Chairwoman Maloney, for 
having another hearing on paid family leave. This is something 
that is extremely important.
    I don't know why I am on two screens at once. But you guys 
get to get double of me.
    [Laughter.]
    Mr. Gomez. But first, let me just say, I know my colleagues 
on the other side of the aisle are starting to, like, ask why 
this is even necessary, right, this paid family leave, and they 
made so much progress during the last administration when they 
were--they stopped arguing about if it is needed, and they 
started arguing about how to get it done.
    But I feel like they have backtracked a little bit. So, let 
us bring them back to the forefront of the fact that universal 
paid leave is just critical to protecting all Americans.
    I think the fact is no longer up for debate. I think it is 
particularly true. We have seen it time and time again, and we 
saw the pandemic show that it is absolutely needed.
    And I am proud that in California, I led one of the largest 
expansions of paid family leave when I was a State Assembly 
member. Made the wage replacement more progressive, in the fact 
that lower-income individuals would get a higher wage 
replacement so that they can actually afford to take time off, 
and the fact that we expanded it to include not just parental 
leave, but also how do you take care of a sick family member--
how do you actually go and make sure that they have the time 
off to be there during their last days.
    And I think if we care about the family, we have to care 
about the ability of these individuals to be there in the 
toughest of circumstances and not worry if they are going to 
have a job when they return or not.
    So I want to just--to get to some questions. Ms. Shabo, can 
you describe how a comprehensive national paid leave policy can 
advance racial and gender equity?
    And the reason why I am asking that is the fact that we 
know that lower--a lot of working-class folks, tend to be 
minority, tend to be--work in a lot of industries that are just 
part time, and they often--and it is not that they don't work.
    They often work four or five jobs a week to make ends meet. 
But then they don't have the kind of leave that is necessary to 
be able to take time off.
    Like my parents. When I got sick with pneumonia when I was 
seven, my parents had to, like, miss shifts at work, and they 
were working all the time. And it was something that still sits 
with me to this day.
    So, Ms. Shabo, that was a question for you.
    Ms. Shabo. That is great. Thank you for bringing this up. 
And, you know, your story--you tell your story so eloquently 
and it sticks with me because it is the experience of so many 
other families and kids who spend more time in the hospital 
because they don't have a parent there to care with them to 
be--care for them, to be able to talk to doctors and make sure 
that the care that they need, that their child needs, is going 
to be able to be continued when they get home.
    But to answer your question, you know, we have learned a 
lot from the state-paid leave programs. We have learned that 
wage replacement that is higher for low-wage workers is 
critically important to ensure that lower-wage workers are able 
to take the benefit that is provided.
    We know that employment protections are critically 
important so that the 44 percent of workers who are not covered 
by the Family and Medical Leave Act are able to take the 
benefit that they have without fear of losing their job.
    We know that the ability of people to care for more than 
just parents, spouses, and children is critically important, 
and that is why Chairwoman Maloney's FMLA expansion bill that 
she has been working on for a number of years is so critical, 
and why the inclusive family definition in both the Neal 
Building an Economy for Families proposal and the American 
Families Plan is so important as states--as states have all 
recognized.
    You know, importantly, I want to come back to something 
that Ms. Manning said earlier about the ways in which lower-
wage workers may not be served by paid leave. I think we have 
learned a lot from how state programs have been constructed, 
and that gives us a tremendous opportunity when Congress does 
implement a Federal program to correct some of the--some of the 
challenges, and to ensure that all workers, whether they are 
lower-wage workers or middle-wage workers, are able to take the 
paid family and medical leave that they need, and then come 
back to work, to be back at businesses like Mr. Sorkin's, to be 
back.
    And employers, you know, that we talked to all across the 
country, 70 percent of whom want access to paid leave, 
according to, you know, many national surveys of small 
businesses.
    Mr. Gomez. Great, and it is true. Some folks are saying 
that we don't learn from how these programs are implemented. 
No, we have learned a lot. Wage replacement is the key. Job 
protection is key, and then just knowing about the programs is 
key.
    And if we can do that, we can help people through--across 
the board.
    And the Federal Government, because we have the ability, 
should play an active role in structuring a program that can be 
a model, that Chairwoman Maloney has led on, and I think that 
will help people think about it in a different way.
    So, I think it is--we are moving in the right direction. We 
got to keep going, and I am glad Chairwoman Maloney has been 
leading this fight.
    So with that, I yield back.
    Chairwoman Maloney. The gentleman yields back.
    And that concludes the questioners, and I just want to 
thank all of my colleagues and all the panelists. You really 
did a wonderful job today answering the questions and sharing 
your expertise with us.
    But before I close, I want to offer the ranking member an 
opportunity to offer any closing remarks he may have.
    Ranking Member Comer, you are now recognized.
    Mr. Comer. Yes, thank you, Madam Chair, and I, again, thank 
the witnesses for being here today.
    Again, Madam Chair, this is the House Committee on 
Oversight and Government Reform, and we, certainly, have no 
shortage of oversight opportunities.
    I am going to conclude by, once again, requesting that this 
committee meet in person and hold hearings on the border crisis 
and/or the origination of COVID-19 and/or a committee hearing 
on the problems with the excessive fraud in the unemployment 
system, specifically California.
    So I think those would be three really good committee 
hearings. We know that we can work in a bipartisan way because 
we passed bipartisan postal reform out of the House Oversight 
Committee.
    But, again, we just feel like when we are--when we are 
talking about workers right now, there is a shortage of workers 
in America and the employers are pleading with the government 
to get out of the way and stop paying people not to work.
    And I just--you know, to have this committee hearing at a 
time when our economy can't rebound, because there is a labor 
shortage, 8 million jobs posted in America right now, we just 
feel like there were better opportunities for committee 
hearings, moving forward.
    So, Madam Chair, I yield back the balance of my time and 
hope that we can have some good committee hearings that the 
taxpayers of America want to see this committee work on.
    Thank you.
    Chairwoman Maloney. Thank you. I now recognize myself.
    If we have learned one thing today it is that paid leave is 
not, as my Republican colleagues claimed, ``a perk,'' end 
quote. Workers need paid leave to recover from serious 
illnesses, to take care of sick children, and to deal with the 
sudden military deployment of a family member.
    Having a seriously ill child is not a perk. Taking time to 
deal with active-duty deployment is not a perk. As our Nation 
seeks to recover from the pandemic, permanent comprehensive 
paid leave is essential to support workers and the families who 
depend on them.
    Not surprisingly, the vast majority of Americans, including 
most Republicans, support paid leave. But it is not only 
workers and their families who gain from paid leave. Employers, 
including the Federal Government and the private sector, also 
benefit from a healthier, motivated work force.
    That is why paid leave is supported by a growing number of 
small and large businesses. Ensuring comprehensive paid leave 
for Federal workers through H.R. 56--564 would help lead the 
way for comprehensive paid family and medical leave for all 
American workers.
    I look forward to continuing to move this bill forward in 
our committee. Before I close, I would like to submit the 
following statements and letters for the record:
    A statement in support for H.R. 564 from Tony Reardon, 
president of the National Treasury Employee Union; a statement 
of support from Karen Rainey, president of federally Employed 
Women; a statement of support from Jenna Johnson, the head of 
Patagonia, Inc.; a statement of support from the National Air 
Traffic Controllers Association; and a letter for H.R. 564 from 
the Government Managers Coalition.
    Chairwoman Maloney. In closing, I want to thank our 
panelists for their remarks, and I want to commend my 
colleagues for participating in this important conversation.
    With that and without objection, all members have five 
legislative days within which to submit extraneous materials 
and to submit additional written questions for the witnesses to 
the chair, which will be forwarded to the witnesses for their 
response. I ask our witnesses to please respond as promptly as 
you are able.
    This hearing is adjourned.
    [Whereupon, at 2:05 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
